<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                        TUESDAY, MARCH 15, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 3:00 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Shelley Moore Capito (chairman) 
presiding.
    Present: Senators Capito and Schatz.

                          LIBRARY OF CONGRESS

STATEMENT OF DAVID MAO, ACTING LIBRARIAN OF CONGRESS
ACCOMPANIED BY:
        ROBERT NEWLEN, CHIEF OF STAFF
        MARIA PALLANTE, REGISTER OF COPYRIGHTS
        MARY MAZANEC, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
        MARK SWEENEY, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES
        JANE McAULLIFE, DIRECTOR, NATIONAL AND INTERNATIONAL PROGRAM
        BERNARD BARTON JR., CHIEF INFORMATION OFFICER
        ROBERTA SHAFFER, LAW LIBRARIAN OF CONGRESS
        MARY KLUTTS, CHIEF FINANCIAL OFFICER
        KAREN KENINGER, DIRECTOR, NLS BOOKS FOR THE BLIND AND 
            PHYSICALLY HANDICAPPED
        CARL CARSON III, BUDGET OFFICER

           OPENING STATEMENT OF SENATOR SHELLEY MOORE CAPITO

    Senator Capito. Good afternoon. The subcommittee will come 
to order, and I would like to welcome everyone to the third and 
final fiscal year 2017 budget hearing for the Legislative 
Branch Appropriations Subcommittee.
    Today, we will have two panels of witnesses. The first 
panel will include Mr. David Mao, the Acting Librarian of 
Congress. At the completion of Mr. Mao's testimony and the 
subsequent questions and answers with the Library, we will turn 
to the Architect of the Capitol, the Honorable Stephen T. 
Ayers, for our second panel. The point of bringing that up is, 
Mr. Mao, you can leave after the first panel.
    I would like to start by welcoming you, Mr. Mao. You have 
been the Acting Librarian since Dr. Billington's retirement at 
the end of September 2015, and you and I have had a couple of 
conversations. You have been the Deputy Librarian since January 
12, 2015, although you have been with the Library for 11 years.
    So, in Library terms, you are a newcomer, but you have 
obviously proven your dedication and commitment to the Library 
by working in several positions. We appreciate your willingness 
and abilities to do that, including working for the 
Congressional Research Service, the Law Library, and the 
Librarian's office.
    I understand there are several members of the senior 
leadership team here today, and want to extend the 
subcommittee's appreciation to all of you for the tremendous 
work that you do supporting the Congress, keeping the Nation 
informed, and maintaining the history of our country as well as 
many other countries around the world.
    Thank you all for being here with us today for this 
important discussion on how the Library is planning to move 
forward in the coming fiscal year.
    I would note that the Library's total fiscal year 2017 
budget request is $667.2 million, a $67.3 million or 11.2 
percent increase over fiscal year 2016. Included within this 
requested increase is funding for an additional 99 full-time 
equivalents. Given the continued budget constraints within 
which we operate, it will be important to hear from you about 
the most critical priorities for the Library, because we may 
not, and probably will not, be able to fully fund all of the 
requested increases.
    And now, I would like to turn to the ranking member, 
Senator Schatz, for any opening statements he would like to 
make.

                   STATEMENT OF SENATOR BRIAN SCHATZ

    Senator Schatz. Thank you, Chairman Capito. I will address 
my opening remarks to both panels in the interest of time. I 
want to welcome our witnesses, Acting Librarian Mao, and the 
Architect of the Capitol, Mr. Ayers.
    Our budget hearings are critical so that we can understand 
the challenges that your agencies face. The bipartisan budget 
deal last year provided a much needed boost in discretionary 
funding, but next year, the caps are flat, so we need input 
from the agencies to help us to figure out how to make the best 
tough funding decisions in this environment.
    We also need to get a sense of where we are headed in the 
future as we consider the consequences of a continued budget 
cap scenario, caps that are now at a level that I worry are 
short-sighted and irresponsible given the needs across the 
Federal Government.
    Of course, our first panel is with Mr. Mao with the Library 
of Congress, an institution that I hold in high esteem, as the 
steward of our cultural and intellectual heritage. This can be 
a tough job in an era of constant change and evolving 
technologies, but I still believe in libraries. I still believe 
in books. I think there is a need for a physical space to be 
the repository of American knowledge.
    I fully support the Library's efforts to modernize and 
incorporate the new with the old, and I am glad to see new 
technologies helped to make resources more readily available to 
the public. We are always going to need books and we are always 
going to need libraries.
    I want to give a special thanks to the Library for hosting 
the Daniel K. Inouye Distinguished Lecture Series, which I was 
able to attend the first one. The inaugural lecture was 
captivating and really reflected the spirit of Senator Inouye 
who remains unparalleled in his dedication to public service.
    Now, let me turn briefly to the AOC which preserves a 
unique part of our history here in the Capitol. Mr. Ayers, I 
noticed that the Statue of Freedom has emerged from the 
scaffolding. I have it written down here that ``It is an 
exciting development.'' I would call it an encouraging 
development. I am looking forward to seeing the finished look 
of the Capitol and hearing about the progress, especially as we 
anticipate inauguration.
    I do want to talk to you about the AOC's responsibility in 
overseeing the Senate's contract for food services, and I would 
like to acknowledge and welcome the Restaurant Associates' 
employees who are here today at the hearing. They have 
handwritten letters that they have given to me about their 
experiences, and with your permission, Chairman Capito, I would 
like to submit those into the record.
    Senator Capito. Without objection.
    [The information follows:]
                    Letter Submitted by David Cuevas
    Dear Senator Schatz: My name is David Cuevas. I work as a cook at 
the Capitol Visitors Center. We did not receive any raises. We only 
received our review of 50 cents, even though other Compass workers who 
are cooks and cashiers at the Senate did receive wage increases.
    We struggle to survive on low pay. As a cook at the Capitol 
Visitors Center I only make $13.30 an hour, and now with my review 
$13.80 an hour. Human Resources representative told me that it is fair 
what I make, but at the Senate cooks make $17.45 an hour.
    I feel like our opinions don't matter. That is why I am writing to 
you for your help because every worker deserves an equal voice and 
equal pay. That is also why we intend to keep fighting until every 
worker wins a living wage and the right to form a union without fear of 
retaliation.

            Thank you Senator Schatz,

                                   David Cuevas,
                                   Cook, Capitol Visitors Center.
                                 ______
                                 
               Letter Submitted by Carlos Alberto Garcia
    Dear Senator Schatz: My name is Alberto Garcia and I'm a cook at 
the U.S. Senate Cafeteria inside the Dirksen building. As you are 
aware, we have been fighting for a $15 minimum wage and the opportunity 
to form a union without the fear of retaliation.
    Recently, our employer Compass Group, renegotiated its contract for 
food service with the Architect of the Capitol. After nine strikes over 
the past year, we thought we had finally won a victory in our struggle. 
The Architect of the Capitol announced that raises would be given to 
all workers to make them more similar to the workers at the House of 
Representatives who earn higher wages and have benefits and a union.
    However, in order to avoid paying some of us a higher wage, our 
employers misclassified us into lower paying job categories in 
violation of the Service Contract Act. Although we have heard that 
these issues are being dealt with, it's now 3 months since the contract 
was set in place, and we have no updates on when we will receive the 
appropriate pay rate or any back pay associated with the 
misclassification.
    I have big dreams. I'm currently enrolled in school and hope to 
someday become a head chef. I would like to attend culinary school, but 
my current pay is not enough to make my dream a reality.
    If I were to get the raise to $17.45 that has been promised to 
workers like me who cook meals for visitors, Senators, and staff at the 
Senate Cafeteria, my life would change significantly.
    I could help support my mother more, finish my current studies and 
begin my training to become a chef. But that dream is currently on 
hold. Winning this partial victory is important, but we are not going 
to stop until workers at the U.S. Capitol earn at least $15 an hour and 
are allowed a voice on the job to negotiate for better benefits and 
working conditions. I have no doubt that if we had been part of the 
negotiations for this contract, some of the issues that have surfaced 
since then would not be happening now.

            Thank you Senator Schatz,

                                   Carlos Alberto Garcia,
                                   Cook, Dirksen Senate Cafeteria.
                                 ______
                                 
                  Letter Submitted by Bertrand Olotara
    Dear Senator Schatz: I am Bertrand Olotara. I was hired as a cook 
at the Senate by Restaurant Associates on January 16, 2014 until 
December 18, 2015, when Restaurant Associates renewed its contract. 
They then changed my classification to a food service worker, and I 
keep fighting until they reclassify my title. I only make $14.21 an 
hour as a food service worker instead of $17.45 as a cook. I am a 
single father of five and I work two jobs 7 days and 70 hours a week. 
As a result, I don't have enough time to spend with my family going to 
the library, church, attending school events, etc., and my American 
dream is a nightmare right now.
    However, with my reclassification I will leave my second job and 
have a normal life as a father who will work 40 hours a week and take 
my children to music classes and basketball practices. I don't want to 
rely on food stamps to feed my children.
    I will appreciate dear Senator Schatz if you can ask Restaurant 
Associates to treat workers the same way because a cook at the Capitol 
Visitors Center makes less money than a cook at the Senate. 
Furthermore, having a union will protect workers against any wrongdoing 
from Restaurant Associates.

            Best regards,

                                   Bertrand Olotara,
                                   Senate Food Service Worker.

    Senator Schatz. Thank you. I share the deep concerns that 
many of my colleagues have expressed, that working in the 
restaurants has been a very tough experience. In the United 
States Capitol, we have a special obligation to take care of 
the people who take care of us. They have not been treated 
fairly, both as an ethical matter, and in my opinion, as a 
legal matter, and I look forward to continuing this 
conversation as we go through this hearing.
    Thank you, Chairman Capito.
    Senator Capito. Thank you, Senator. With that, I welcome 
Mr. Mao to give his opening remarks. I think they will be 5 
minutes in length. Your full statement will be printed in full 
in the hearing record. Welcome.

                     SUMMARY STATEMENT OF DAVID MAO

    Mr. Mao. Thank you, Chairman Capito, Ranking Member Schatz, 
good afternoon. Thank you for the opportunity to testify in 
support of the Library of Congress' mission and its fiscal year 
2017 budget request.
    We are very grateful for the continued support that you and 
the Congress give to the Library, and in particular, I express 
extreme gratitude for your help last year with our urgent 
physical collection management needs.
    For more than 215 years, the Congress has sustained its 
Library. With the largest collection of the world's recorded 
knowledge ever assembled by one institution, the Library now 
holds over 162 million items, including the world's largest 
collection of legal materials, films, sound recordings, and 
maps.
    Library staff have provided research and analysis to the 
Congress for more than 100 years through the Congressional 
Research Service, and for almost 200 years through the Law 
Library. The Library has supported and protected U.S. 
creativity and innovation since it became the national home of 
the copyright function in 1870.
    The Congress remains the Library's primary focus. Our 
highest priority as an institution is to support the 
legislative, oversight and representational work for the 
Congress.
    We are, however, at a time of significant change and 
opportunity as we prepare for new leadership for the first time 
in almost 3 decades. Our focus is on positioning the Library to 
serve the Congress and the American people in a future where 
change, driven in particular by technological advancement, 
occurs at an accelerating pace. The Library must adapt to this 
rapidly changing environment.
    Over the last year, we reconfigured the Library's 
organizational structure to meet increasing demands. We also 
released a new strategic plan for 2016 through 2020 that 
provides a path forward, and is deliberately flexible in order 
to accommodate future needs as they evolve.
    As part of the realignment and to support the new 
organizational structure, the Library made critical leadership 
appointments of a chief information officer and a chief 
operating officer to unify the Library's information technology 
and operational infrastructure functions.
    Additionally, we appointed a director of the newly created 
National and International Outreach service unit, to head 
consolidated outreach activities, including collaborative 
efforts with other institutions.
    For fiscal year 2017, we asked for $667 million in 
appropriations, which represents an 11 percent increase over 
fiscal year 2016. Of this, 3.5 percent covers mandatory pay and 
price level increases. Moreover, $13 million of the fiscal year 
2017 request will non-recur in fiscal year 2018.
    The balance of the increase represents critical investments 
in future areas that will immediately advance the Library's 
capabilities across its diverse mission areas.
    As the important work of the Library continues, demand for 
services grows. We, therefore, seek to achieve much needed 
transitional improvements, particularly in response to 
Government Accountability Office findings of the Library's 
management of information technology.
    We are dedicated to strengthening our information 
technology and physical infrastructure core that will 
significantly leverage the Library's capabilities and 
capacities.
    We are committed also to addressing urgent human capital 
needs, such as analytic capacity in the Congressional Research 
Service.
    While complete transition cannot be accomplished in 1 year, 
we must first address the most urgent shortfalls in key 
infrastructure areas, information technology, the care of and 
access to our digital and physical collections, and developing 
and maintaining the unique human skills needed to fulfill the 
Library's mission.
    Through several years of declining budgets, we compromised 
and took risks in these areas, often making difficult choices 
to cover mandatory costs that ensured current operations while 
sacrificing investment for the future.
    Absorbing mandatory pay and price level increases over 
those years further eroded the Library's buying power. 
Continually funding near-term operational demands at the 
expense of long-term investments has allowed some mission 
critical areas, such as the data center and the primary 
computing facility, to reach the point where they present 
serious risks.
    Much has changed since the Library put key infrastructure 
into place. Technology has advanced, Congressional and public 
demands have changed, and some infrastructure has become 
outdated.
    The Library's budget request, which represents transition 
and transformation, aims to position the Library to move 
forward. To avoid mortgaging the future by continuing to 
support infrastructure that cannot handle current and future 
demands, we must make long-term investments that move us 
forward in the most economical way.
    Our future service to the Congress and the American people 
depends on having a modernized infrastructure, and one that is 
appropriate, efficient, and lasting.
    Madame Chairman, Ranking Member Schatz, the Library is both 
America's first Federal cultural institution and part of the 
innovative infrastructure of America. I thank you again for 
supporting the Library of Congress and for your consideration 
of our fiscal year 2017 request.
    [The statements follow:]
                   Prepared Statement of David S. Mao
    Madame Chairman, Ranking Member Schatz, and members of the 
subcommittee:

    Thank you for the opportunity to provide testimony in support of 
the Library of Congress mission and its fiscal 2017 budget request.
    The mission of the Library of Congress is to provide the Congress 
and the American people with a rich, diverse, and enduring source of 
knowledge that supports the Congress in fulfilling its constitutional 
duties and empowers America in its intellectual, creative, and civic 
endeavors.
    For more than 215 years the Congress has sustained its library. 
With the largest collection of the world's recorded knowledge ever 
assembled by one institution, the Library holds over 162 million items 
including the world's largest collections of legal materials, films, 
sound recordings, and maps. The Library's staff have provided research 
and analysis to the Congress for more than 100 years through the 
Congressional Research Service (CRS) and for almost 200 years through 
the Law Library; and the Library has supported and protected U.S. 
creativity and innovation since it became the national home of the 
copyright function in 1870. Today, ``The Library embodies key ideals on 
which this nation was founded: the right of a free people to have 
unfettered access to knowledge, the necessity for a productive people 
to have material incentives for innovation, and the need to preserve 
the record of our citizens' creativity.''
    I come before you today during a time of significant change and 
opportunity for the Library. As we prepare for new leadership for the 
first time in almost 29 years, our focus is on positioning the Library 
to serve the Congress and the American people in a future where change, 
driven in particular by technological advancement, occurs at an 
accelerating pace. Our fiscal 2017 budget request represents the 
beginning of a transformation and transition process for the Library. 
Looking across the Library's diverse mission areas, successful 
transformation to an infrastructure that can accommodate this fast-
moving environment will require increased capacity and capability in 
computing power, information technology, and unique human skills.
    Storage space for our collections continues to be a high priority 
in this transition period. Beginning construction on a fifth 
preservation and storage module at Ft. Meade is a tremendous step 
forward, and the Library appreciates congressional support of the 
project. The Ft. Meade modules reduce deterioration of the Library's 
collections, provide for better access, and help alleviate an urgent 
situation with the management of physical materials. We are grateful 
for congressional funding and support in fiscal 2016 to start the 
design of modules 6 and 7, and for the support we received for our 
urgent physical collections management needs. Committed to our overall 
mission of distributing knowledge and information and preserving 
American heritage and culture, we take very seriously our duty as 
stewards of these precious resources and as servants of current and 
future generations.
    Over the last year we implemented a major realignment that 
reconfigured the Library's organizational structure to meet 
accelerating demands. The Library's streamlined organization will set 
the conditions for providing comprehensive information technology 
planning and execution; centralizing management of key support 
functions to serve the Library's mission areas; consolidating 
management of digital and analog collections; and improving the support 
structure for staff. To enhance the Library's outreach efforts, we 
brought together under one organization the outward-facing activities 
and programs that were previously scattered throughout several Library 
units. They are the foundation for the new National and International 
Outreach service unit.
    As part of the realignment and to support the new organizational 
structure, the Library made critical leadership appointments of a chief 
information officer and a chief operating officer to centralize 
oversight of and make more efficient the Library's information 
technology and operational infrastructure functions. Additionally, we 
appointed a director of the National and International Outreach service 
unit to spearhead oversight of the consolidated outreach activities, 
including collaborative efforts with other institutions.
    To further prepare for transformation, the Library developed a 
Strategic Plan for 2016-2020. Released in October 2015, the plan sets 
forth primary strategies that are deliberately flexible in order to 
accommodate future needs as they evolve. Our commitment to the 
following seven strategies will provide the basis for comprehensive 
planning and programming to ensure the Library's transition to being a 
much stronger service provider.

    1.  Service: Deliver authoritative, authentic and nonpartisan 
research, analysis and information, first and foremost, to the 
Congress, to the Federal Government, and to the American people.
    2.  Collections: Acquire, describe, preserve, secure and provide 
access to a universal collection of knowledge and the record of 
America's creativity.
    3.  Creativity: Work with the U.S. Copyright Office to develop 
modernized copyrights systems and practices, in accordance with 
copyright laws and public objectives.
    4.  Collaboration: Stimulate and support research, innovation, and 
life-long learning through direct outreach and through national and 
global collaborations.
    5.  Empowerment: Empower the workforce for maximum performance.
    6.  Technology: Deploy a dynamic, state-of-the-industry technology 
infrastructure that follows best practices and standards.
    7.  Organizational structure: Organize and manage the Library to 
facilitate change and adopt new methods to fulfill its mission.

    As the important work of the Library continues, demand for services 
grows. We therefore are taking aggressive action in this budget request 
to achieve much-needed transitional improvements, particularly in 
response to Government Accountability Office findings on the Library's 
management of information technology, as well as findings from several 
reports by the Library's Office of the Inspector General. We are 
dedicated to strengthening our information technology and physical 
infrastructure core that will significantly leverage the Library's 
capabilities and capacities.
    For fiscal 2017, we ask for $719.260 million, a 12 percent increase 
over our 2016 budget. Of this, 3.24 percent covers mandatory pay and 
price level increases ($23.332 million). Moreover, $13.098 million of 
the fiscal 2017 request will non-recur in fiscal 2018. The balance of 
the increase represents critical investments in three focus areas that 
will immediately advance the Library's capabilities across its diverse 
mission areas. It is a significant request that represents the 
beginning of modernization, transition, and risk reduction.
    While complete transition cannot be accomplished in 1 year, the 
process for positioning the Library to adapt effectively to 
accelerating demand and advancing technologies requires that we first 
address the most urgent shortfalls in key infrastructure areas. These 
areas primarily include information technology, the care of and access 
to our digital and physical collections, and developing and maintaining 
the unique human skills needed to fulfill the Library's mission. 
Through several years of declining budgets, we compromised and took 
risks in these areas, often making difficult choices to cover mandatory 
costs that ensured current operations while sacrificing investment for 
the future. Absorbing mandatory pay and price level increases over 
these years further eroded the Library's buying power. Continually 
funding near-term operational demands at the expense of long-term 
investment has allowed some mission-critical areas, such as the data 
center/primary computing facility, to reach the point where they 
present serious risks.
    The Congress remains the Library's primary client. Accordingly, our 
highest priority as an institution is to provide all members and 
committees with authoritative, timely, and nonpartisan research and 
analysis, and information to support the legislative and oversight work 
of both houses of Congress.
    CRS works constantly to position itself for the future by 
systematically anticipating congressional needs 3 years out. Meeting 
congressional needs in a multitude of areas, including those that 
cannot be anticipated, depends on CRS staff expertise. We request 
enhancements to analytic capacity in areas of high demand such as 
defense policy, and emerging issues such as technology policy. Because 
staffing in CRS has declined nearly 10 percent over 5 years of flat 
budgets, and senior experts' retirements continue steadily, support for 
these requests will help CRS maintain appropriate capabilities to offer 
effective responses to issues that become priorities on the 
congressional agenda. These are unique, not easily acquired, human 
skills required by CRS in order to process superior research products 
essential for decisionmaking.
    While filling human capital needs in CRS and other targeted areas 
is a major focus, addressing significant long-term information 
technology issues also is of high importance for the entire Library. IT 
infrastructure is the foundation for all of the Library's mission 
areas: a central IT operation supports everything from congress.gov and 
crs.gov to the copyright online registration system and collections 
that embody America's heritage and culture. IT is the backbone for much 
of the services the Library provides; it runs the online catalog, 
operates the Braille and Audio Reading Download (BARD) application for 
the blind and physically handicapped on mobile devices, and enables the 
Library to put online rare documents and images that cannot be found 
anywhere else in the world. While the demand for computing power 
continues to increase, our current capacity is restricted and in dire 
need of modernization to ensure continued operations of essential 
services and to reduce risk.
    Thus, a major focus of this budget is to modernize computing 
capability. We ask for the first year in a 3-year investment to begin 
building a hosting environment for the Library's primary computing 
facility (PCF) away from Capitol Hill at the shared legislative branch 
hosting site. The root of many of the Library's IT challenges is the 
insufficient computing capability and capacity of the Madison Building 
primary data center. The current center is an Uptime Institute Tier I 
facility that lacks power or cooling redundancy. Library customers 
rightfully demand that the system is always ``on,'' but our 
infrastructure struggles to keep pace. In 2008, for the first time, the 
PCF was shut down during the annual fire and safety check due to the 
deteriorating capability of the Uninterrupted Power Source (UPS) to 
pick up the load once Madison Building power was turned off. In August 
2011 the PCF was shut down twice: once due to the August 23 earthquake, 
and again due to Hurricane Irene. Again the UPS was not trusted to pick 
up the load during a power loss. Last summer, we experienced a serious 
hardware failure and outage of Library systems--including a costly 9-
day outage of the copyright registration system--when the PCF was shut 
down during the Architect of the Capitol's annual fire and safety 
check. Annual shutdowns are required because the generators are 35 
years beyond their service life and are unable to pick up the full data 
center power demand during the required electrical power shutdown to 
the building. Currently, the demands of the Library's mission make it 
the biggest power draw on Capitol Hill. The PCF infrastructure is near 
capacity and carries a high risk of unplanned shutdowns. Moreover, it 
is not a matter of if, but when there will be a major mechanical 
failure--exclusive of the risk of a natural disaster or terrorist 
attack. In our opinion, it is imperative that the PCF be modernized, 
and preferably as part of the House data center initiative.
    We therefore strongly recommend modernization as well as locating 
our primary computing facility away from Capitol Hill. The risks of 
remaining in the current aged and inadequate data center on Capitol 
Hill are significant. A modernized and remote PCF will greatly reduce 
risk, allow for double the capacity, and achieve Tier III capability, 
which Capitol Hill renovation alone will not. It is clear that 
additional capacity and modernization will greatly reduce the risk of 
shutdown under a multitude of circumstances.
    The exposure of the Library's IT infrastructure to cybersecurity 
threats is another area of serious concern, and is one weakness 
identified by Government Accountability Office and Office of the 
Inspector General findings. The information and knowledge that the 
Library houses and distributes to customers in all mission areas is 
critical to the Nation and must be protected in order to reduce cyber-
attack risks and ensure mission continuance. For these reasons, we also 
seek funding for IT security enhancements that will strengthen critical 
security protection of the Library's IT network and resources as cyber 
threats continue to grow exponentially.
    The Library's pace of digital collecting surpasses current 
collection infrastructure capabilities and is another area of concern. 
For example, the Library's web archives are three times larger than 
they were in 2010, with the amount of harvested content increasing by 
an average of 32 percent each year during this period. The expansion 
rate of digital collections now rivals that of physical collections. We 
are currently at capacity and request funding for a digital collections 
management unit to collect and manage content for the Library's digital 
format collections. The unit will work closely with the Chief 
Information Officer to collect, preserve, and deliver digital 
collections. It will assume responsibility for key born-digital 
acquisitions programs and digital materials not supported elsewhere in 
the Library and will provide significantly leveraged capacity and 
capability needed to manage the explosion of content in this area.
    The Integrated Library System (ILS) is a mission-critical 
enterprise Library system that integrates major operational functions 
through the use of a common bibliographic database. The ILS supports 
the acquisitions, cataloging, circulation, and loan of Library material 
and provides online public access to Library collection metadata. The 
Library's requirements have evolved substantially since the system was 
installed in 1999. Because the current system cannot accommodate all of 
our electronic resource-management needs, the Library must operate 
several smaller ILS systems. We request funding to examine the business 
needs not currently supported in the ILS in order to develop 
requirements for the next-generation system which will electronically 
manage the Library's collection and provide discovery and delivery of 
the Library's collections to users worldwide. This investment will 
enhance the Library's capability to access and deliver critical 
material across all mission areas. We seek this funding in order to 
plan responsibly for the replacement of a core system.
    One of the seven strategies in the Library's strategic plan for 
2016-2020 is support for the U.S. Copyright Office in its efforts to 
develop modernized copyright systems and practices. For example, one 
reason for the request to move the PCF away from the Washington, DC 
area is to ensure against another outage of the copyright registration 
system like the one experienced last summer. Well-developed and 
flexible information technology systems are critical to the 
administration of a modern Copyright Office. The Library's systems are 
supporting the Copyright Office's efforts to improve internal 
operations and better meet customer needs.
    In support of the Copyright Office's modernization efforts, we 
request programmatic increases to address critical staffing needs, 
ongoing efforts to make historic records searchable, data planning and 
management, and essential upgrades to software and hardware. Seventy-
two percent of the request would come from fee revenue and prior year 
unobligated funds.
    Finally, the Law Library has urgent collections needs to strengthen 
current and future service to congressional and other clients. We seek 
funding for a 7-year project to complete classification of the Law 
Library's multi-national legal collection of current and historic 
legislative documents, as well as primary and secondary sources of 
American, foreign, and international law. The collection is not fully 
classified according to the Library's own classification schedule. The 
Law Library must depend for access on staff members with many years of 
experience and specialized knowledge of where the materials are 
located. Reclassification and re-shelving of approximately 367,000 
volumes will provide better service to Members of Congress and the 
general public through faster retrieval of requested volumes.
    Current and future access to some of the Law Library collections 
depends on the replacement of compact shelving in storage areas. 
Initially supplied by a company now defunct, the compact shelving was 
retrofitted 15 years ago with a hand-crank system, operated by bicycle 
chains. The retrofit solution is failing and in some instances staff 
cannot fit carts or ladders--or themselves--into aisles to retrieve or 
re-shelve books. The estimated lifespan of the compact shelving was 
estimated to be 25 years; the shelving is now 30 years old. The 
situation presents serious staff safety issues, makes some collection 
items inaccessible, and takes some storage space out of service.
    To sum up, much has changed since the Library put key 
infrastructure into place in the 1990s and early 2000s. Technology has 
advanced, congressional and public demands have changed, and some 
infrastructure has become outdated. The Library's budget request, which 
represents transition and transformation, aims to position the Library 
for the future. We laid the groundwork with a realignment and new 
strategic plan for 2016-2020. To avoid mortgaging the future by 
continuing to support infrastructure that cannot handle current and 
future demands, we must make long-term investments that move us forward 
in the most economical way, and also bring in new expertise.
    We are mindful that the Library is an integrated institution. The 
Law Library, for example, obtains materials through copyright deposit, 
depends on the Library's IT services, and works closely with Library 
Services staff. All units in the Library--the Congressional Research 
Service, the U.S. Copyright Office, the Law Library, Library Services, 
National and International Outreach--are increasingly interdependent in 
accomplishing their missions. We are collaborating in new and better 
ways to ensure we make the best use of our resources.
    Our future service to the Congress and the American people depends 
on having a modernized infrastructure--an infrastructure that is good, 
lasting and right.
    Madame Chairman, Ranking Member Schatz, and members of the 
subcommittee, the Library is both America's first Federal cultural 
institution and part of the innovative infrastructure of America. I 
thank you again for your support of the Library and for your 
consideration of our fiscal 2017 request.
                                 ______
                                 
Prepared Statement of Mary B. Mazanec, Director, Congressional Research 
                                Service
    Madame Chairman, Ranking Member Schatz and members of the 
subcommittee,

    I appreciate the opportunity to present the fiscal 2017 budget 
request for the Congressional Research Service (CRS). As you know, CRS 
has provided a unique service to all Members of Congress and committees 
for over a hundred years--delivering research and analysis without 
advocacy or agenda. In CRS, Congress has at its disposal dedicated 
specialized expertise and information resources ready to support any 
issue that may arise.
    Our experts work hand-in-hand with your offices on a daily basis. 
Senators and staff know they can count on CRS to be confidential, 
objective, nonpartisan, authoritative, and timely. We align our work 
with the congressional agenda from the moment a new issue arises and 
continue to meet the needs of lawmakers throughout all stages of the 
legislative process. CRS analysts proactively examine the nature and 
extent of the full range of problems facing Congress, anticipate 
upcoming issues, identify and assess policy options, and assist with 
hearings on legislative proposals and on implementation of existing 
policies.
    In the last fiscal year, the Service offered members and staff 
multifaceted, in-depth support across a wide spectrum of complex and 
diverse issues, with our experts providing more than 62,000 responses 
to requests for custom research and analysis. By the end of the fiscal 
year, CRS produced over 3,600 new or updated written products, 
summarized over 8,000 bills for the legislative digest, and hosted over 
300 seminars, briefings, and other events for more than 7,400 
congressional participants.
                       fiscal 2017 budget request
    The CRS budget request for fiscal 2017 is $114,408,000, with almost 
90 percent devoted to pay and benefits for our staff. That is a 7 
percent increase from fiscal 2016, the majority of which would serve 
simply to keep inflation and pay increases from eroding our base budget 
even further. This request will position CRS to face the challenges 
ahead and continue to deliver the extensive support we provide to 
Congress.
                           budget challenges
    Congress expects CRS to maintain the ability to offer 
comprehensive, timely and authoritative research and analysis on the 
full range of issues important to the American people. In addition, we 
are expected to employ the most up-to-date analytical techniques and 
methodologies, and to present our analysis in readily accessible and 
highly usable formats.
    In this time of static budgets and reduced purchasing power, 
meeting congressional expectations is growing more challenging for the 
Service; particularly in a research setting characterized by 
increasingly complex issues, the explosion of data sources and the fast 
moving information environment in which the Congress operates. CRS must 
be positioned to nimbly navigate these challenges to support a twenty-
first century Congress.
    Since 2010, CRS's purchasing power has been reduced by thirteen 
percent. Cost containments and increased operational efficiencies have 
mitigated the effects of this shortfall on the ability of the Service 
to provide timely support to the Congress. However, existing CRS 
capabilities are stretched exceedingly thin to meet current 
congressional requests, while maintaining the high quality of our 
research and consultative services. CRS staff levels have decreased by 
nearly 10 percent over the past 5 years, and CRS experts are performing 
more work with fewer resources. For example, 17 active staff in the 
defense policy and budget areas now perform the work done by 25 people 
just a few years ago. In the current budget climate, the Service is 
unable to hire behind every analyst who retires. As a result, 
portfolios have been divided and reassigned to the remaining staff.
    If CRS capabilities are not enhanced commensurate with the 
Congress's demand for our services over the next few years, we 
anticipate that:

  --the ability of CRS to conduct in-depth research and analysis will 
        be adversely impacted as existing staffing gaps intensify, with 
        the Service facing challenges acquiring necessary new 
        expertise, and retaining its invaluable cadre of experienced 
        experts;
  --the Service will not be able to effectively procure and utilize new 
        technologies and leverage the increasingly vast amount of data 
        that could provide critical insight for congressional 
        decisionmaking;
  --areas of consistently heavy congressional demand, including 
        education, healthcare, defense, and appropriations will 
        increasingly be impaired by staffing constraints, and 
        timeliness for responses to requests and updating of research 
        products may be adversely impacted due to staff workload; and
  --the Service's ability to effectively perform all of the functions 
        required by statute will diminish.
               fiscal 2017 programmatic increase request
    High workloads and coverage gaps risk jeopardizing CRS's ability to 
provide Congress with the expertise it depends on to carry out the 
Nation's business. To help ensure that CRS can continue to meet 
congressional expectations, the budget request includes a programmatic 
increase of $3.106 million to fund a total of 22 FTEs to allow the 
Service to secure additional specialized technical skills and policy 
expertise necessary for research and analysis in support of the 
Congress.
    This funding would allow CRS to add 12 FTEs to strengthen capacity 
in issue areas of high demand which are currently significantly 
understaffed. Many of the key analysts in areas such as defense, 
education, healthcare, appropriations, and budget are handling 2 to 4 
times the average number of requests per analyst, per year.
    The increased funding would also allow the Service to hire seven 
FTEs to fill emerging gaps in technology policy, data management and 
analysis, and data visualization--three areas identified in our 
strategic planning effort that would have a widespread, positive, and 
immediate impact on service to the Congress. Of the seven FTEs, the 
funding would provide for four analysts focused on technology policy--
enabling CRS to better respond to questions around the use of emerging 
technology in areas like national security, e-finance, transportation, 
and biotechnology; all of these are areas of growing congressional 
interest, which we anticipate will spur an increasing number of 
requests for the Service.
    The Service is receiving more requests to analyze ``big data'' sets 
that can help inform policy decisions. Of the seven FTEs, the funding 
would also provide two positions focused on data management and 
analysis and an additional position focused on data visualization--to 
enable us to deliver complex information in a more readily digestible 
format.
    The budget increase would also allow the Service to make 
improvements to the Constitution of the United States of America: 
Analysis and Interpretation (popularly known as the Constitution 
Annotated or CONAN), the highly regarded and widely used comprehensive 
treatise on constitutional law that CRS maintains pursuant to statutory 
mandate. We recently brought in a prominent constitutional scholar to 
review CONAN and make recommendations on how to modernize and increase 
its accessibility and usability for Congress, constitutional scholars, 
and the public at large. The budget increase would support three 
legislative attorneys with expertise in constitutional law to perform 
the complex legal research and analysis that is critical to the success 
of this modernization project.
    Cognizant of the current budget environment, we have taken 
significant steps to manage our responsibilities within our current 
resources. We have restructured our recruitment strategy to bring in 
more entry-level analysts who can work on a wide variety of issues. And 
we have created new position types--such as our research assistants--
bringing in highly talented entry-level staff to assist analysts with 
data collection and the production of research. Staff capacity is being 
grown using in-house, entry-level hiring programs and leveraging low-
cost staffing strategies, such as volunteer interns, phased 
retirements, and temporary appointments. Contract staff are used where 
appropriate.
    However, there is a practical limit to the capacity and flexibility 
of CRS staff to absorb additional subject-area assignments while 
maintaining the knowledge, experience, and expertise necessary to offer 
timely, in-depth, authoritative research and analysis on the full range 
of issues important to the American people. While some issues can be 
anticipated and properly planned for, others appear rapidly and need to 
be answered immediately. To be able to meet that demand, the Service is 
compelled to maintain senior staff capable of addressing detailed 
questions that arise in a wide range of specialties.
                    legislative support for congress
    To better illustrate the range of specialties we must maintain on 
staff, I'd like to provide the Committee a sample of the breadth and 
depth of services CRS provided last year.
    On the domestic front, the budget, debt, and deficit continued to 
drive significant demand for research and analysis. Our experts 
supported the debate over the fiscal 2015 and fiscal 2016 budgets by 
analyzing budget trends and the impact of recent legislation. Congress 
called on CRS to examine a number of specific issues such as the impact 
of the Budget Control Act on Federal spending, and issues associated 
with reaching the debt limit.
    Immigration and healthcare remained very active as well. On 
immigration, CRS wrote extensively on legal and policy issues raised by 
the executive branch's actions, ``sanctuary'' jurisdictions, and 
related national security concerns. With respect to the Affordable Care 
Act, CRS provided broad and deep coverage on the law's implementation 
and potential legislative alternatives. CRS health experts also 
provided research and analysis pertaining to emerging health reform 
legislation and worked extensively on issues relating to the passage of 
the Medicare Access and CHIP Reauthorization Act.
    CRS supported several other major congressional initiatives. 
Analysts and attorneys worked closely with both the Senate and House on 
the Elementary and Secondary Education Act (ESEA). Our finance and 
trade staff worked extensively on issues around the reauthorization of 
the Export-Import Bank. We also provided in-depth support for 
congressional action on transportation and energy legislation, and 
defense department reform efforts.
    When Congress sought to develop a compendium of tax expenditures, 
CRS analysts provided a comprehensive assessment of each and every one. 
Analysts also reviewed the potential policy and economic consequences 
of the various tax reform initiatives proposed by members, the White 
House, and outside think tanks, and supported the deliberations over 
extending expiring tax provisions.
    The fiscal year also saw several major social issues capture 
congressional interest. The Supreme Court decision in Obergefell v. 
Hodges, legalizing same-sex marriages, raised a host of questions for 
CRS attorneys. CRS provided analytical support and consultative service 
to the Congress as it held hearings, introduced legislation, and 
debated issues pertaining to fetal tissue donation and funding for 
reproductive health services. Mass shootings and questions about race 
relations and the proper use of force by law enforcement required 
impartial CRS policy and legal analysis.
    In the international arena, ongoing violent conflicts abroad, 
political upheavals, power disputes, nuclear proliferation pressures, 
and major refugee and humanitarian dilemmas captured significant 
congressional attention in the past fiscal year. CRS experts were 
readily on hand to help with these critical issues.
    CRS assisted the Congress by analyzing the international struggle 
against the Islamic State and other terrorist groups, not only in Syria 
and Iraq, but also in Libya, Yemen, Egypt, and various sub-Saharan 
African countries. The Congress also sought CRS assistance as lawmakers 
considered presidential authority to engage in military operations 
against the Islamic State and debated options for new or revised 
congressional authorization for the use of military force.
    The Iran nuclear deal prompted numerous requests for legal and 
policy analyses by CRS on what the agreement required of Iran, the 
United States, and the other parties; the current status of Iran's 
nuclear program; and the role of the International Atomic Energy Agency 
(IAEA). Experts assisted with issues such as how the deal might alter 
Iran's regional policies, including aid to terror groups, and how key 
U.S. partners in the region, including Israel and Saudi Arabia, viewed 
the agreement. CRS also examined the sanctions provisions of the 
agreement, including which sanctions were designated to be lifted, 
which ones would remain, which sanctions would be brought back into 
effect if warranted, and the nature of the authority to waive or lift 
sanctions on Iran.
    CRS foreign affairs and legal experts also supported a number of 
global trade issues, including the reauthorization of Trade Promotion 
Authority (TPA), negotiations on the Trans-Pacific Partnership (TPP), 
the U.S.-EU Transatlantic Trade and Investment Partnership (T-TIP), 
U.S. trade relations with China, and economic sanctions against Russia.
    Finally, CRS provided extensive support for Senate operations. Our 
analysts and attorneys provided in-depth research, empirical analysis, 
and procedural expertise on executive and judicial nominations as the 
Senate exercised its duty to advise and consent. And our legislative 
procedure experts supported Senate deliberations not only through 
reports and tailored work but also through an extensive seminar program 
on all aspects of the legislative process.
    Many of these issues will continue to be of interest to Congress 
this session. We have completed our annual legislative planning 
process, identifying over 140 issues likely to be on the congressional 
agenda. To ensure we are prepared to meet congressional needs, we have 
formed multidisciplinary teams which are preparing and updating reports 
and organizing our product line and web resources around those issues.
    This anticipatory legislative planning process spanned several 
months and resulted in CRS being well placed to provide products and 
services to the Congress this session. However, even the best planning 
cannot anticipate all issues that may suddenly confront the Congress. 
CRS has the analytical flexibility to quickly address emerging issues. 
For example, the terrorist attack on Paris last year turned attention 
overnight to a number of international and domestic security issues. As 
events unfolded, we quickly updated our reports on the Islamic State, 
terrorism, immigration, and domestic security and highlighted that body 
of work on the home page of our Web site. In addition to products 
focused on those issues, our experts conducted in-person briefings and 
prepared tailored analyses of questions raised by the attack. CRS staff 
stand ready to respond to emerging issues like the Paris event at all 
times.
                       congressional satisfaction
    Given our close working relationship with Congress, CRS has been 
tasked with leading a Library-wide initiative to survey Members of 
Congress and their staffs, to ensure that the Library's products and 
services are meeting expectations. The Library recently entered into a 
contract with Gallup, which has an 80-year history of conducting 
cutting-edge survey research. Gallup will conduct member and staff 
surveys and interviews to determine their fundamental and optimal 
requirements for services and support from the Library and especially 
CRS and what, if any, actions are necessary to provide those services. 
We expect their final report later this year.
                           strategic planning
    Although CRS's statutory mission remains the same, Congress and the 
environment in which it operates are rapidly evolving. To ensure that 
the Service is well positioned to meet the information and research 
needs of a twenty-first century Congress, we launched a comprehensive 
strategic planning effort that identified priorities, goals, and 
objectives that will enable us to move effectively into CRS's second 
century. One of the first tasks identified is a review of our 
operations, beginning with an assessment of how we can better manage 
and utilize the latest technologies. This CRS plan is compatible with 
the Library's overall strategic plan. CRS has kept its congressional 
oversight committees informed of the goals as well as progress on the 
plan. This 5-year strategic plan will be implemented beginning in 2016, 
through 2020.
                   new authoring and publishing tool
    The Service's information technology infrastructure shapes our 
daily operations, the research we are able to conduct, and how we are 
able to deliver our products and services to the Congress. CRS made 
significant progress in fiscal 2015 on a multi-year effort to identify 
and assess options for updating our existing system for authoring and 
publishing written products distributed directly to the Congress. A 
special working group composed of a cross-section of staff from across 
the Service continues to develop a detailed set of requirements and 
technology options for the future of the authoring and publishing 
system.
                          product enhancements
    In order to meet evolving congressional needs, new ``In Focus'' and 
``CRS Testimony'' products were developed for release on CRS.gov in 
fiscal 2015. In Focus products are concise, two-sided, one-page 
summaries of key issues on a given topic. They are available in 
printable PDF format as well as standard HTML pages. CRS produced 
approximately 250 In Focus products during the fiscal year. In 
addition, a template was developed to provide congressional staff with 
easy access to congressional testimony submitted by CRS experts. Both 
In Focus and CRS Testimony products can be located on the CRS Web site 
by key word or author search, similar to CRS Reports.
    To help meet the growing congressional demand for visual 
information, CRS launched a pilot study of a new product line devoted 
to stand-alone, high-quality ``infographics.'' These products present 
complex information in a condensed visual form that is easily 
understood. Multiple infographics have been posted on CRS.gov, covering 
a range of diverse topics such as regulatory burdens on small banks, 
economic effects of the fiscal 2014 Government shutdown, and military 
casualty statistics. Additional infographics will be developed as we 
determine the effectiveness and usability of this product type. CRS 
also collaborated in the Library-wide project to develop a geospatial 
hosting environment which will allow the creation of interactive maps 
for congressional use.
    CRS continues to explore additional product formats for presenting 
key information and analysis in ways that meet congressional needs for 
authoritativeness, accuracy, and brevity. As part of this effort the 
Service is developing one-page summaries of CRS reports that will be 
published as stand-alone products. The Service is also developing new 
Issue Pages for CRS.gov that will provide a one-place stop for products 
on specific issues, like defense and healthcare. The Issue Pages are 
intended to align the organization of CRS products to the portfolio 
structure of congressional offices and make them more easily accessible 
for congressional staff.
                        congress.gov enhancement
    Working in collaboration with the Senate, House, GPO, and the 
broader Library, CRS significantly contributed to the continuing 
development of Congress.gov as the official source for Federal 
legislative information that will fully meet congressional needs. CRS 
provided data analysis, subject matter expertise, consultation, system 
testing, user testing, coordination of data partner relationships, and 
support for congressional users and data partners. CRS also continues 
to support the use of the Congress-only LIS until equivalent capability 
is fully developed for the new Congress.gov.
                               conclusion
    Congress relies on CRS to marshal interdisciplinary resources, 
apply critical thinking, and create innovative frameworks to help 
legislators evaluate and develop sound legislative options and make 
decisions that will guide and shape present and future national policy. 
The entire CRS staff is dedicated to that mission and proud of our 
unique role as extended congressional staff. However, to continue to 
provide confidential, objective, nonpartisan, authoritative and timely 
research and analysis, CRS needs to be able to continue to build and 
enhance its research capacity with staff capable of meeting fully the 
needs of Congress as you contend with increasingly complex issues.
    I appreciate your continued support and look forward to working 
with you to ensure that CRS continues to robustly fulfill its mission 
to you and the entire Congress.
                                 ______
                                 
  Prepared Statement of Maria A. Pallante, United States Register of 
     Copyrights and Director of the United States Copyright Office
    Madame Chairman Capito, Ranking Member Schatz and members of the 
subcommittee:

    Thank you for the opportunity to present written testimony in 
support of the fiscal 2017 budget request of the United States 
Copyright Office. The Copyright Office's core operations are funded 
through two sources: fees paid by authors, corporate entities, and 
other customers; and annual appropriated dollars that reflect the value 
of the Copyright Office's services to both the public and the economy. 
Historically, fees have made up the majority of this funding, with a 
range of 58 percent to 67 percent over the past 5 years.
                mission, policy work and strategic plans
    The Copyright Office has a critical mission within the United 
States Government. It administers the Nation's copyright laws for the 
advancement of the public good; offers services and support to authors 
and users of creative works; and provides expert, impartial assistance 
to Congress, the courts, and executive branch agencies on questions of 
law and policy, including in the context of interagency discussions or 
intergovernmental negotiations.
    In the past few years alone, the Copyright Office has undertaken a 
tireless schedule of studies and public meetings regarding areas of 
both copyright law and copyright administration, all geared towards 
updating, clarifying and improving the national copyright system. As 
directed by Congress, some of these reports contain legislative 
recommendations: for example, in publishing Copyright Small Claims, the 
Copyright Office analyzes and advises on the benefits of creating a 
small claims mechanism outside of Federal court. Other efforts reflect 
significant updates to the administrative practices that implement the 
Copyright Act: for example, in publishing the Compendium of U.S. 
Copyright Office Practices, Third Edition, the Copyright Office 
completed the first comprehensive revision of the Office's 
administrative manual for copyright registration and recordation in 
decades.
    The Copyright Office serves a wide diversity of customers worth 
trillions of dollars to the U.S. economy--from video game developers to 
mobile device manufacturers, from movie studios to Internet streaming 
companies, from music creators to online music services, from educators 
to libraries. The goal today is ensuring that the Office is positioned 
to meet the current and future needs of these essential stakeholders.
    Not surprisingly, modernization goals are connected to the evolving 
and dynamic role of technology in the copyright marketplace. Today, it 
is commonplace for musicians to record songs on a smartphone or tablet, 
capturing in real time all the data needed to satisfy copyright 
registration requirements. By the same token, a digital music service 
trying to license that song and millions of others should be able to 
connect its servers directly to the Copyright Office via an API and 
search our data completely. Photographers, newspapers and software 
developers, among others, all need targeted attention to ensure 
services are optimal and regulations are appropriate. To accomplish 
these goals, we must shift the approach of the past entirely, and 
provide a flexible platform that others can build upon for the 
effortless protection and licensing of copyrighted works, and allow 
customers to complete transactions with the Copyright Office in real 
time, whether to protect their legal rights or to access or share 
business data.
    To this end, and as further discussed below, the Copyright Office 
released two key documents in recent months that reflect our nuanced 
thinking and deliberations: (1) a 5-year strategic plan on December 1, 
2015, entitled Positioning the U.S. Copyright Office for the Future: 
2016-2020 \1\ and (2) a 5-year IT plan on February 29, 2016, entitled 
Provisional Information Technology Modernization Plan,\2\ which 
provides a basis for fiscal year 2017 and 2018 activities.
---------------------------------------------------------------------------
    \1\ http://copyright.gov/reports/strategic-plan/USCO-strategic.pdf.
    \2\ See www.copyright.gov/reports/itplan/.
---------------------------------------------------------------------------
    Together these plans set a path by which to recalibrate almost all 
of the Copyright Office's services, from how it registers copyright 
interests in all kinds of creative works, to how it records and shares 
critical copyright data. The plans map to the strategic plan of the 
Library of Congress, which states in relevant part that it will 
``[w]ork with the U.S. Copyright Office to develop modernized 
copyrights systems and practices, in accordance with copyright laws and 
public objectives.'' The Copyright Office and Library are also well 
positioned now to discuss relative points of alignment and relative 
responsibilities for information technology services.
    In general, the Copyright Office IT plan recommends a clean slate 
approach, in which the Copyright Office is responsible for building new 
mission-critical applications within a dedicated enterprise 
architecture, and retiring rather than migrating legacy systems. The IT 
plan leverages flexible cloud technologies, while minimizing the need 
for an unwieldy and capital-intensive data center. This approach will 
allow the Office to remain nimble, and adapt to the ever-evolving needs 
of the copyright marketplace. It positions the Office to develop and 
link a number of IT programs and data needs that are best suited to its 
various functions, i.e., developing separate business models for 
copyright registration and copyright recordation, and integrating the 
respective data sets as appropriate.
    At the House Appropriations Committee's request,\3\ the Copyright 
Office has recently posed several questions regarding funding and 
implementation to the public.\4\
---------------------------------------------------------------------------
    \3\ In the House Report accompanying the fiscal year 2016 
appropriations bill, the Committee stated:

         The Committee fully understands the importance of the 
Copyright Office as it relates to creativity and commercial artistic 
activity not only within the United States but also on a world-wide 
basis. In order to serve the copyright owners and the copyright 
community in the 21st century, a robust modern information technology 
(IT) operation will be necessary. . . . [T]he Committee directs the 
Register of Copyrights to report, to the Committee on Appropriation and 
relevant Authorizing Committees of the House on a detailed plan on 
necessary IT upgrades, with a cost estimate, that are required for a 
21st century copyright organization. In addition to the cost estimate, 
the Register shall include recommendations on a funding strategy and a 
timeframe for completion of a new IT system that is necessary to better 
serve the public in the digital age. The Register should seek public 
comments to help inform the Copyright Office with the funding strategy 
and implementation timeline.

    H. Rep. No. 114-110 (2015).

    \4\ See http://copyright.gov/policy/itupgrade/index.html.
---------------------------------------------------------------------------
                fiscal year 2017 appropriations request
    Turning to our fiscal year 2017 appropriations request, the 
Copyright Office has three line items, as follows:

    1.  Copyright Basic budget, which funds most Copyright Office 
operations--$66.870 million.
    2.  Copyright Licensing Division, which is a fiscal operation that 
disperses royalty income after statutory distribution proceedings and 
is funded by fees from private parties--$ 5.531 million.
    3.  Copyright Royalty Judges, who report to the Librarian but are 
included by the Library under the Register's budget for administrative 
convenience--$ 1.625 million.

    We have provided budget justifications for all of the above items 
through the agency appropriations process,\5\ however, the first item 
is the heart of Copyright Office operations and the focus of my 
testimony today.
---------------------------------------------------------------------------
    \5\ Library of Congress, Fiscal 2017 Budget Justification 109, 
available at https://www.loc.gov/portals/static/about/reports-and-
budgets/documents/budgets/fy2017.pdf.
---------------------------------------------------------------------------
    In fiscal year 2017, for Copyright Basic, the Copyright Office has 
requested (1) authority to spend $33.619 million of offsetting 
collections, i.e., fees collected from customers for services during 
that fiscal year; (2) authority to utilize $6.147 million from the 
Office's reserve account, i.e., unobligated fees collected during prior 
fiscal year(s); and (3) $27.104 million in taxpayer support.
    Because this request was prepared prior to the completion of the 
Provisional IT Plan, it does not assume the elements of a future 
technology state that are discussed therein. Rather, much of the fiscal 
year 2017 request is directed towards maintaining the current state of 
operation for the Copyright Office and replenishing depleted staff to 
ensure we have sufficient personnel to meet our current 
responsibilities under the Copyright Act. The request prioritizes an 
increase in FTEs, many of which would be dedicated to improving 
existing services, for example, technicians to speed the production of 
certified copies of copyright deposits and other materials. (Some would 
be devoted to transitional assignments involving planning activities.)
    The Office's fiscal year 2017 request represents an increase in the 
basic budget of $14.967 million over fiscal year 2016. The great 
majority of the request is $13.634 million in programmatic increases, 
$9.766 million, would be covered by fees collected in fiscal year 2017 
or prior fiscal years, should the Committee authorize increased 
spending authority. As explained in the budget justification,\6\ we 
have aligned the request for increased spending authority with those 
program changes that support copyright owners paying fees into the 
copyright system, e.g., increased staffing in our copyright 
registration and recordation groups. In addition to the increase in 
spending authority, the 2017 request includes $5.201 million in 
taxpayer support. We have aligned the latter request to program changes 
that serve the general public or businesses taking advantage of free 
public data, such as increased staffing of the legal and policy 
departments and public information office, and to account for mandatory 
pay and price level changes.
---------------------------------------------------------------------------
    \6\ Library of Congress, Fiscal 2017 Budget Justification at 119.
---------------------------------------------------------------------------
    The Copyright Office greatly appreciates the Committee's ongoing 
interest in, and support of, the national copyright system. At your 
direction, we stand ready to further discuss and report on any and all 
matters outlined above.

                         DATA CENTER RELOCATION

    Senator Capito. Thank you. I think I will begin the 
questioning. I want to talk about the increase in your budget 
request for the data center relocation. My understanding is 
that it is in three phases, and you are asking for an 
additional $24.6 this year of a 3 year investment to migrate 
the Library's primary computing facility to an alternate 
location.
    I understand that House Information Resources currently 
located at Ford plans to move theirs as well to a new location. 
While there may be merit in the decision to move the data 
centers away from Capitol Hill, I am not sure I think the House 
should dictate other legislative branch agencies' specific 
courses of action.
    So, would the Library have reached the same decision to 
move its data center to this new location without specific 
direction from the House, and why is it necessary to relocate 
the data center at this particular time?
    Mr. Mao. To answer your second question first, we need to 
relocate the Madison Data Center because we are in a building 
that is 30 some years old and it does not have the capacity to 
serve not only our current needs but also our future needs.
    As we continue to grow, there is not the capability to 
ensure our redundancy, both in the power and the cooling in the 
data center that will ensure that we can continue to serve 
Congress and serve our clients. So, we need to move out of the 
data center.
    The first question you asked was whether we would have made 
an independent decision to move to the House location, the 
Legislative Branch Data Center. We relied on the great work 
that was conducted by the House in the studies they conducted 
in terms of options that were available, and we did not want to 
recreate the wheel. We took a look at their studies and we 
found they were very credible and very, very good at helping us 
to short circuit the work, if you will, on what we needed to do 
in terms of looking at options for us outside of the Madison 
Building.
    Senator Capito. Well, I know in the new location that the 
Library will be assuming lease costs of $7.1 million a year, 
which you currently do not have being housed obviously in one 
of your own buildings. Is this built into the future budgets? 
That is a pretty hefty sum there.
    Mr. Mao. Yes, it is. We have included that and are prepared 
to fund the leasing of the space going forward, and it is 
something that we might need to consider whether we were there 
or somewhere else. The critical question is what do we do to 
get out of the Madison Building because it does not serve the 
needs and the future needs of our data center.
    Senator Capito. So, would you put this in the category that 
you spoke about in your opening statement where it is serving 
the immediate rather than trying to tend to the needs of the 
future, this is something you are going to have to do 
eventually?
    Let's say the funds were not provided to begin phase one, 
is this something that you would reprioritize within your 
budget to begin phase one, or is it something you would have to 
move further back before you could proceed?
    Mr. Mao. We certainly need to continue to think about 
moving the data center out of the Madison Building, whether it 
is this year, next year, or the year after that. We would 
prioritize certainly among all of our needs, but the bulk of 
phase one, we could not absorb that as part of our budget, and 
if we did not move out of the data center, then we would just 
continue to assume the current risk level that we have for 
staying in the Madison Data Center until we could move out of 
the Madison Building.

                   BUDGET REQUEST NON-RECURRING COSTS

    Senator Capito. Let me ask you a quick question. In your 
opening statement, if I heard you correctly, you said $13 
million of this request was non-reoccurring?
    Mr. Mao. Yes.
    Senator Capito. What is that for?
    Mr. Mao. So, there are one time costs for moving and 
setting up the facility in Southwest Virginia.
    Senator Capito. So, this is associated with relocating the 
data center, but then next year, you are going to have to ask 
for different millions of dollars for a different task related 
to that?
    Mr. Mao. Correct.
    Senator Capito. It is not like the $13 million is going to 
be going away.
    Mr. Mao. Yes, that is correct.

                      PUBLIC ACCESS TO CRS REPORTS

    Senator Capito. Okay. Let me ask you about the 
Congressional Research Service, and thank you for what the 
Library provides for us there. When I visited with Mary Mazanec 
one of the discussions that we had was making CRS reports 
public.
    As you know, there is a bill that has been introduced to 
the Senate to put those CRS reports up for general viewing.
    I understand there has been some debate on that because of 
cost, and then also the speech or debate clause. In my view, 
the cost issue, we are already doing a lot of this in and 
around with the GPO and others, putting things up online for 
viewing, I cannot imagine that the cost could be that 
prohibitive to add another portal for the Library of Congress 
CRS reports. I understand that the legislation sort of deals 
with the speech and debate clause in terms of making sure that 
those issues are cleared up.
    Do you have an opinion on that? I mean to me, I just see 
this as something we are going to be doing in the future. I 
would like to see us get on with it.
    Mr. Mao. It is certainly in the proposal that you are 
talking about, there is talk about having CRS information 
released through the Government Publishing Office, more 
specifically, FDsys, FDsys.gov, the Web site.
    Certainly, from a technical point of view, that is one of 
the options that is possible. There are certain costs that 
would be associated with it, and I believe you may have 
referred to the Government Publishing Office talking about 
those costs that they would need to get the system up and the 
back-end work that needed to be done.
    One other thing to consider and something that should be of 
concern is what unintended consequences and results may happen 
with providing that information. We just want to make sure that 
whatever financial implications there may be they are 
considered as well by this committee.
    Senator Capito. Thank you. Senator Schatz.

                         REPROGRAMMING REQUEST

    Senator Schatz. Mr. Mao, at the end of the last fiscal 
year, we received a $4.5 million reprogramming request, on the 
last day. Can you explain what happened?
    Mr. Mao. Yes. So, we had some money that was left over, if 
you will, from contracts, the proposals for contracts, you have 
a proposal in but the costs actually came back much lower than 
what the original estimate----
    Senator Schatz. I understand that part. Why was it the last 
day that we were asked to authorize the reprogramming?
    Mr. Mao. So, we did not actually know the final amount 
until that very last day, or a day or two before, so then we 
could prepare the paperwork. I want to say first of all thank 
you very much for agreeing to allow us to reprogram.
    Senator Schatz. I did not. I appreciate it and I understand 
the need, but I just want to drill down a little deeper here. I 
understand contract costs come in under. That is nothing to 
scold anybody about. It is hard for me to believe it would have 
been impossible to get those numbers back except within 4 hours 
left on the last business day of the last day of the fiscal 
year.
    Can you assure me that will not happen going forward?
    Mr. Mao. Yes. We have taken a hard look at our contracting 
process. As I mentioned in my opening statement, we have 
appointed a new Chief Operating Officer that overlooks the 
contracting portion of what we do at the Library of Congress, 
and he is keeping track and making sure that we do not fall 
into the same situation that we did last fiscal year, so that 
we can ensure if there would be a need for us to ask for 
permission for reprogramming, it would be well in advance and 
with plenty of time for consideration.

                   INFORMATION TECHNOLOGY INVESTMENTS

    Senator Schatz. Okay. Thank you. We have talked about it a 
little bit already, the Library is asking for $67 million of 
additional resources to go towards IT and cybersecurity, but 
given the budget caps, what do you do if you do not get this 
money? Do you have a work around? Do you just push things into 
the future? Are you going to internally reorganize? What 
happens if you do not get this money?
    Mr. Mao. So, to address the security request, we do not 
have the ability to absorb that entire sum if we were not to 
have any increases.
    That said, these proposals were recommended to us. As you 
may know, we had a GAO audit last year, and some of these 
proposals in terms of cybersecurity were recommended as part of 
the non-public report that was issued. They are directly in 
response to that.
    If we do not have the ability to implement, for example, 
two-factor authentication, or coordinating the IT security 
across the entire Library, we will continue to proceed with the 
security that we have. Of course, security certainly is a 
concern to us, and we want to make sure that we continue moving 
forward in that area. We will identify what risks there are if 
needed, and try to adjust them with whatever funds we can find.

                     COLLECTION OF DIGITAL MATERIAL

    Senator Schatz. Okay. You have 90 seconds to answer this 
question.
    Mr. Mao. Okay.
    Senator Schatz. Well, I am going to take 20 of them, sorry. 
You know, in the digital world, how does the Library of 
Congress sort of move into the digital world, digitize that 
which ought to be digitized, but not end up being an archive of 
everything on the Internet? What is the long-term vision for 
digitization and how that integrates into the Library's basic 
mission?
    The reason I think this is so important is I think whatever 
we do, the Library of Congress ends up being an example for the 
rest of the world in terms of setting a tone going into the 
future.
    Mr. Mao. So, in terms of everything on the Internet, that 
is not what we are trying to do. What we are trying to do is 
make sure that we have smart collections, we have collection 
development policies, and we also have experts who are looking 
at all the material and making a determination of what should 
be added to our collection.
    In terms of digitization, we certainly are proceeding down 
that path and making decisions on what materials, analog 
materials, should be digitized, but we are also talking about 
born digital materials, so things that are already--well, they 
started off in the digital format. Altogether, we are trying to 
work together to make sure that we, as you say, set the 
standard for the world, and make sure that we at, the same 
time, are collecting the right information going forward.
    Senator Schatz. Are we most of the way towards having new 
best practices and a well articulated policy, or is part of the 
challenge that the Library itself and the librarian community 
is adjusting to the circumstances, and you are still trying to 
come up with policies?
    Mr. Mao. It is a little bit of both. One of our proposals 
is to have a collection management division within the Library 
strictly focused on digital materials. We are working now in an 
analog world where we do some digital work but we want to stand 
up a division that will have their primary focus on all digital 
work.
    Senator Schatz. Thank you.

                         FULL-TIME EQUIVALENTS

    Senator Capito. I am going to ask an additional question, 
if that is okay with everybody. I want to get to the full-time 
equivalent question. I mentioned it in my opening remarks. You 
are asking for 99 additional FTEs--Library of Congress, 25, 
Copyright Office, 52, and Congressional Research Service, 22.
    Books for the blind and physically handicapped, no 
additional. We will give them a little gold star over here.
    What is the need for 99 additional FTEs? That is a pretty 
large increase. So, I would like to hear your justification for 
it. You do not have to dig down deep, just a general 
justification, and then maybe we can have subsequent questions.
    Mr. Mao. Certainly. The request is for the funding for the 
99. We have authorization. We are well below our authorized 
level. Over the last 5 to 7 years, as we have had flat funding 
and sequestration, we have had to basically absorb mandatory 
costs and mandatory pay price level increases.
    We have had to make some decisions on the funding for FTEs. 
Overall, from 2010 through 2015, we are down over 400 FTEs. We 
have looked at our needs and targeted the specific areas where 
we have very critical needs on staffing, and those are 
represented in the 99.
    Senator Capito. Let me ask you this, is it possible to 
absorb the additional work through a contract type of 
situation, where maybe it is a more temporary kind of position 
that needs to be filled rather than assuming all of this along 
with the cost, so that next year, you know, if you were to get 
another 99, you are going to have additional requests because 
of the obvious benefits and cost increases of having that many 
more people.
    I mean, I am sure you do contracting. Is that an issue that 
you look at before you start asking for more people?
    Mr. Mao. Yes. We have looked at all different ways to get 
the work done, including contracting, although generally 
speaking, contracting could end up being more expensive than 
FTEs in certain instances.
    We have looked at a variety of opportunities, including 
having work divvied up differently. I mentioned in my opening 
statement that we had a major realignment last year. You may 
recall that this proposal, for example, of the digital division 
was included in last year's proposal, where we were actually 
asking for 22.
    As part of the realignment, we looked at the workload and 
looked at who could help out with certain work, so you see this 
year, it is actually 11, because we have prioritized and looked 
at how we could shift some of that work around using our 
current resources.

                           SHIFTING RESOURCES

    Senator Capito. I mean, I think on the face of it, too, 
sort of pivoting off of Senator Schatz's question, in terms of 
the digitization, there are fewer magazines, there are fewer 
newspapers--although it seems like there are more books than 
ever, I will say that, when you see people on a book tour.
    You know, is that a general shift? I know you still need 
the resources in the traditional areas, but certainly some of 
those areas have got to be shrinking, just by virtue of the way 
people are communicating. Is that not the case?
    Mr. Mao. That is not the case. I would be happy to provide 
you with the statistics. We continually add print materials to 
our collection at quite a clip every single day.
    [The information follows:]
                          library collections
    Question. Are certain collection formats diminishing due to the 
digital age? For example, less and less magazines, newspapers, and 
general print are being produced. Could the Library shift its resources 
to collection formats that are growing more rapidly than other areas?
    Answer. The reality is that print publishing is very healthy even 
though digital publishing has developed into a major industry itself. 
Thus, the Library must selectively acquire both analog and digital 
content in order to meet its mission to serve Congress and the Nation. 
When material is simultaneously available in both formats the Library 
generally acquires only one copy.
The Publishing Industry
    The amount of print publishing has actually increased in recent 
years, a trend evidenced globally. For example, the following table 
shows the production of print books by traditional publishers in the 
United States from 2002 to 2013. It also shows e-book production from 
publishers in the United States, 2011-2014. (Provided by Bowker, the 
standard source of U.S. publishing information.)


------------------------------------------------------------------------
                              U.S. Printed Books     U.S. e-Books from
           Year                from Traditional         Traditional
                                Publishers \1\           Publishers
------------------------------------------------------------------------
2002......................               215,138   .....................
2003......................               240,098   .....................
2004......................               275,793   .....................
2005......................               251,903   .....................
2006......................               274,416   .....................
2007......................               284,370   .....................
2008......................               289,729   .....................
2009......................               302,410   .....................
2010......................               308,628   .....................
2011......................               292,037                155,979
2012......................               309,957                301,479
2013 \2\..................               304,912                260,247
2014......................  .....................               255,341
------------------------------------------------------------------------
\1\ Does not include reprints, print-on-demand, self-published titles,
  etc.
\2\ Projected; most recent full year data released.


    So, there are huge numbers of both print titles and e-books being 
published, in many cases with the same content being available in 
multiple formats. These statistics are from the United States alone. 
The Library collects worldwide, and the actual publishing landscape is 
far bigger and varied than just in the United States.
    Magazines and newspapers fall into the general category of serials, 
which also encompasses journals, annuals, newsletters and other types 
of periodicals. Ulrichsweb.com is a database containing information on 
all types of serials worldwide. A search of the database on March 28, 
2016, for all active serials in all countries retrieved 365,174 
records. There were 226,086 records for print serials and 115,811 
records for online electronic serials, with many publications having 
separate records for both print and electronic. From this data, it 
appears that there are still many serials that are only available in 
print format.
Current Collecting at the Library
    The Library has a mission to: Acquire, preserve, and provide access 
to a universal collection of knowledge and the record of America's 
creativity. Collections materials are selectively acquired not only to 
serve immediate needs, particularly those of Congress, but also to be 
preserved for future generations of use. The Library has been steadily 
increasing its digital collecting capacity and capability over the past 
two decades. Expanding the digital collecting program is an essential 
part of the institution's mission. Yet, the transformation of the 
Library of Congress into a library that is primarily digital is 
impacted by the state of the publishing marketplace (as described 
briefly above), Copyright regulations that need to be updated and 
limited acquisitions funding.
    In this changing hybrid environment, the Library must collect, make 
available and preserve materials in both traditional and digital 
formats. For example, the following data show the number of new print 
book and serial titles, from all countries of publication, added to the 
Library's print collections over the past 5 years.


----------------------------------------------------------------------------------------------------------------
                    New Printed Book & Serial Titles Added to the Collections (all countries)
-----------------------------------------------------------------------------------------------------------------
                                    Fiscal Year     Fiscal Year     Fiscal Year     Fiscal Year     Fiscal Year
              Year                     2011            2012            2013            2014            2015
----------------------------------------------------------------------------------------------------------------
No. of Titles...................         285,123         267,121         230,350         222,498         238,976
----------------------------------------------------------------------------------------------------------------


    Concurrently, the pace of digital collecting at the Library has 
accelerated greatly. Examples include the following.

  --Last year, the size of the Library's Web archives (at 763 terabytes 
        of content) was more than triple what it had been in 2010. The 
        amount of harvested content increased by an average of 32 
        percent each year during the 2010-2015 period.
  --Electronic serials received through Copyright mandatory deposit now 
        number 1,400+ titles, comprising over 2 million files, compared 
        to the 79 titles and 91,000 files received as of the end of 
        2011.
  --Over 4,200 e-Books were added to the collections through the CIP 
        program in fiscal year 2015, compared to 67 in the previous 
        year--a 6200+ percent increase.

    During a period of constrained budgets the Library has been 
shifting resources in order to expand collection of digital content. 
However, the wealth of overall published creativity still available in 
analog form precludes a simple shift of additional resources to collect 
more available digital content. An overall increase in funding 
resources is necessary to support this mission.

    Senator Capito. Okay.
    Mr. Mao. It is both.
    Senator Capito. It is growing in both areas?
    Mr. Mao. Yes, exactly.
    Senator Capito. Okay. Thank you. I think that is very good. 
I appreciate you being here, and that concludes the first 
panel. The hearing record will stay open for 7 days so that 
Senators may submit any statements and questions by close of 
business on Tuesday, March 22.
    You are excused. Thank you very much. I will call up Mr. 
Stephen Ayers.
    Mr. Mao. Thank you very much.
    Senator Capito. I think we can begin. I would like to 
welcome the Honorable Stephen T. Ayers, Architect of the 
Capitol, and members of the senior leadership team. Christine 
Merdon, the Chief Operating Officer. Tom Carroll, the Chief 
Financial Officer. Mamie Bittner, director of Communications 
and Congressional Relations.
    I understand that several of the superintendents 
responsible for the daily operation and maintenance of the 
buildings within the jurisdiction of the Architect of the 
Capitol also are here today. We thank you very much, along with 
many other AOC employees, and we thank them for their 
dedication and many years of service.
    The total fiscal year 2017 budget request for the Architect 
is $694.3 million, an increase of $81.4, 13.3 percent. I 
realize with the deferred maintenance backlog of $1.5 billion, 
you have had to make some tough decisions when building this 
budget request. However, it still represents a 13.3 percent 
increase.
    Included within the increase is the funding to support an 
additional 71 full-time equivalents. The request for additional 
personnel is a theme across most of the legislative branch 
agencies today. You heard me talking with the Acting Librarian, 
and I will ask you as I have asked other agencies how can we 
afford to continue increasing the size of the agency when we do 
not have enough to cover the available current workforce, whose 
salaries and benefits go up every year, and to tackle all the 
necessary projects.
    As the subcommittee has discussed with each of the 
witnesses here, it is highly probable that we will be faced 
with a flat budget for fiscal year 2017, so we have some very 
difficult decisions to make.
    We realize the level of difficulties and expense in 
managing the maintenance of our aging infrastructure while 
preserving its historical value. We certainly do not want to 
see these historic buildings crumble down around us.
    However, we may have to further delay some of the proposed 
work due to budget constraints. I would like to hear from you 
regarding the impact of delaying some of this work year after 
year in terms of the increased deterioration and future cost of 
repair.
    Now, I would like to turn to my ranking member, Senator 
Schatz, for any opening remarks he would like to make.
    Senator Schatz. I do not have any opening remarks.
    Senator Capito. We will go right to Mr. Ayers, who will 
give a brief opening statement of 5 minutes, and your written 
testimony has been submitted to the committee, which will be 
printed in full in the hearing record. Welcome.
                                ------                                


                        ARCHITECT OF THE CAPITOL

STATEMENT OF HON. STEPHEN T. AYERS, ARCHITECT OF THE 
            CAPITOL
    Mr. Ayers. Thank you, Chairman Capito, and Ranking Member 
Schatz. I appreciate the opportunity today to testify regarding 
our fiscal year 2017 budget request.
    Two thousand sixteen promises to be a banner year for the 
Architect of the Capitol, as several important projects are 
scheduled for completion. Most visibly, before the January 2017 
Presidential Inauguration, restoration work on the Capitol Dome 
and the Rotunda of the Capitol will be complete.
    On the Dome, installation of the cupola windows is 
complete, and cast iron repairs through the mid and lower 
sections of the Dome are complete, and as Senator Schatz said 
in his opening remarks, the Statue of Freedom has emerged, 
causing some excitement.
    Inside the Rotunda, coffers have been stripped of old paint 
and new painting and repair work are about to get underway.
    Updating and improving our facilities through fiscal 
responsibility continues to be our most important priority.
    In the Hart Senate Office building, for example, we were 
able to leverage roof and skylight replacement project 
efficiencies toward the solar power system installation and the 
safety analysis on the Calder Clouds.
    Over the past 10 years, the installation of over $90 
million in energy savings and performance contracts have 
significantly aided in our ability to achieve a 30.9 percent 
reduction in our energy intensity. This, of course, exceeds the 
target set by the 2007 Energy Independence and Security Act, 
and represents a major achievement for us that we are very, 
very proud of.
    These projects are all success stories, but are also 
compelling examples of the need for a sustained and significant 
investment in our deteriorating infrastructure. Continuing to 
defer needs results in critical damage that compounds and will 
become more costly to repair in the future.
    Safety and state of good repair upgrades are the 
centerpiece of our fiscal year 2017 request of $694 million 
that provides the most beneficial and economical use of 
funding. We must continue to address the enormous backlog 
estimated at $1.49 billion at the close of fiscal year 2015.
    As our needs grow, we recognize the importance of 
leveraging staff expertise, collaboration across the agency and 
engaging in partnerships that have helped to stretch the few 
dollars that we are budgeted.
    Our 2017 request builds on our successes and requests 
$165.5 million for major capital projects deemed urgent or 
immediate. Those include replacing obsolete chillers at the 
Capitol Power Plant, and eliminating water infiltration on many 
of our buildings across the Capitol campus.
    In particular, we have begun important stone preservation 
efforts in the Senate extension of the United States Capitol, 
as well as the Olmsted Terrace, the United States Botanic 
Garden and the United States Supreme Court.
    Also, the Senate underground garage fountains and 
reflecting pool, and all their associated systems have exceeded 
their life expectancy and are in need of renovation and 
restoration, and we expect that to begin just after the January 
2017 Presidential Inauguration.
    Repairing leaks, corrosion and aging piping systems in the 
Capitol Building that threaten to affect the operation of that 
building, and improving life safety systems at the Library of 
Congress through the second phase of the Library of Congress' 
Thomas Jefferson Building Exit Stair B, which will increase the 
capacity to quickly exit people from that building in the event 
of an emergency.
    Failing to address these and other critical projects in the 
short term will exacerbate the aging process, facilitate new 
deterioration and failures, and ultimately increase the cost of 
these repairs.
    I look forward to working with the Congress on these 
priorities, and again, thank you for the opportunity to testify 
today.
    [The statement follows:]
              Prepared Statement of Hon. Stephen T. Ayers
    Chairman Capito, Ranking Member Schatz, and members of the 
subcommittee, I appreciate the opportunity to testify today and discuss 
the Architect of the Capitol's (AOC) fiscal year 2017 budget request.
    The AOC values our unique mission to serve Congress and the Supreme 
Court, preserve the historic facilities and grounds of the Capitol 
campus and inspire generations of Americans through art and 
architecture.
    Thanks to your support, 2016 promises to be a banner year as 
several major projects are scheduled for completion. These projects 
mark important milestones in our ongoing efforts to preserve our 
infrastructure, enhance the beauty of our historic buildings and 
improve safety and security for all employees and visitors.
    By the 2017 Presidential Inauguration, work on our most visible 
projects, the Dome and Rotunda restoration, will be complete.

<greek-l><GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


       Workers Prepare the Rotunda's Coffered Dome for New Paint.

    Work progresses on the restoration of the Ulysses S. Grant 
Memorial, accessibility improvements to Bartholdi Park and a structural 
safety analysis on the clouds component of the Alexander Calder 
Mountains and Clouds sculpture in the Hart Senate Office Building. All 
of these initiatives are nearing completion.
    At the U.S. Capitol Visitor Center (CVC), 2016 will bring the 
installation of lighter weight entrance and exit doors to ease access 
for the more than 2 million annual visitors. We are also extremely 
proud of the CVC's Rotunda App, which was recently honored by ADOBE in 
their public service category for ``Most engaging citizen-facing 
campaign.'' ADOBE lauded the App for providing ``Videos, infographics, 
photography, and historical illustrations [that] provide the next best 
experience to actually touring in person.''

<greek-l><GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


           Capitol Visitor Center Exterior Door Replacement.

    Off campus, we are constructing new storage space for precious 
Library of Congress collections at the Fort George G. Meade military 
installation in Maryland.
    These examples illustrate the broad range of the AOC's unique 
mission responsibilities and our focus on strategic investments to 
update and improve our facilities. They are also compelling examples of 
the need for a sustained, significant investment in our deteriorating 
infrastructure. Deferring investment results in critical damage that 
only gets worse with time. Without immediate attention, problems become 
costlier to repair, more intrusive to Congress' daily operations and a 
campus that is less available to our visitors.
                      people first, safety always
    We take seriously the responsibility to protect the physical and 
human resources entrusted to our care. Our commitment to excellence is 
buoyed by our steadfast efforts to maintain a safe, effective workplace 
for Congress and a welcoming destination that millions of Americans 
visit and enjoy all year long.

<greek-l><GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      The Capitol Building Paint Branch Puts the Finishing Touches
    on the Safety Bannister in Preparation for Pope Francis' Visit.

    With a staff of more than 2,100, AOC employees are our most 
precious resource. These highly dedicated and talented employees are 
sought out by other agencies and by people across the Nation and around 
the world to share their unique expertise and knowledge. Imparting best 
practices in risk assessment, and partnering on quality contracting 
procedures, top notch professionals strive to meet our goals and 
performance metrics year-after-year.
    In order for our employees to succeed and continue to deliver 
positive results, increased resources are required for necessary 
projects identified by the AOC. The U.S. Capitol and the buildings that 
make up the Capitol campus are losing key elements--such as stone, cast 
iron and bronze--that define these iconic symbols of democracy and are 
critical to their structural integrity. The resulting impact is that a 
quarter of our buildings are in poor condition, according to our 
Facility Condition Index.
    Restorations are necessary not only to preserve these symbols of 
American democracy but also to ensure the health and safety of those 
who work at and visit the Capitol campus each day. Safety and state-of-
good-repair upgrades are the centerpiece of our fiscal year 2017 budget 
request of $694.3 million that emphasizes prioritization, 
effectiveness, efficiency and accountability to provide the most 
beneficial and economical use of funding.
    Our request is a 13.3 percent increase over fiscal year 2016 
enacted funding levels and, we believe, the minimum amount needed to 
begin to address decades of reduced investment and an enormous backlog 
estimated at $1.49 billion at the close of fiscal year 2015.
    The Building Research Board at the National Research Council 
recommends a minimum of 2 to 4 percent of the current value of a 
building be reinvested on an annual basis to reduce the backlog of 
deferred maintenance. Unfortunately, less than \1/2\ of 1 percent of 
the value of the buildings within the AOC's purview is currently 
reinvested in our infrastructure.
    While these statistics are unacceptable, we continue to make 
strides by prioritizing our most urgent needs.
                   stewardship through prioritization
    The AOC is keenly aware of how far every taxpayer dollar must go to 
meet our stewardship responsibilities. As our needs grow, we recognize 
the importance of leveraging staff expertise, collaborating across the 
agency and engaging in partnerships that have proven to help stretch 
limited budgetary resources. There is a balance in addressing repairs 
and upgrades while also attending to necessary security requirements, 
energy-saving projects, code-compliance issues, historic preservation 
measures and the needs of AOC clients.
    Operationally, over the past 10 years the AOC has successfully 
implemented a plan to exceed the energy reduction target established by 
the Energy Independence and Security Act of 2007, achieving a 30.9 
percent reduction from the 2003 baseline. The installation of over $90 
million in energy conservation measures in our buildings using energy 
savings performance contracts significantly aided in this effort. These 
contracts are also great examples of public-private partnerships.

<greek-l><GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                  AOC Employees Monitor Energy Usage.

    Additionally, in 2013 we began work to implement a shared-service 
model with the Department of Agriculture's EmpowHR Human Resources 
Information System. By consolidating our efforts and resources, this 
strategic partnership allows us to curb future operational cost 
increases.
    On the construction side, a redesign of the Bartholdi Park project 
at the U.S. Botanic Garden resulted in a cost reduction of 
approximately $4 million. And in the Hart Senate Office Building, we 
were able to leverage roof and skylight replacement project 
efficiencies toward the solar power system installation and the safety 
analysis of the Calder clouds.

<greek-l><GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


              Worker Preparing Part of Alexander Calder's
         ``Mountains and Clouds'' Sculpture for X-ray Analysis.

    The AOC's investment approach is also focused on the most immediate 
capital needs and operational requirements. The projects AOC recommends 
for funding are prioritized through a rigorous analysis, which includes 
consultation with industry experts and the utilization of best 
practices. Through this process, in fiscal year 2015 we were able to 
bring down the capital program backlog by $61.1 million and prevent our 
current and future needs from growing at a much larger rate.
    The project development process is adjusted annually within the 
framework of our long-range master plan. Projects are classified 
according to the type of work the project addresses. Deferred 
Maintenance (DM) and Capital Renewal (CR) projects are derived from the 
Facility Condition Assessment surveys. The Capitol Complex Master Plan 
is the principal source for identifying new Capital Construction needs 
as well as major Capital Improvement needs. Urgency, classification and 
importance result in a Composite Rating used to recommend projects for 
funding.
    Our fiscal year 2017 request builds on our successes, seeking 
$165.5 million for capital projects. Of this, $100.6 million (or 61 
percent) is specifically for DM--projects where maintenance, repair or 
replacement is past due, in some cases significantly. In addition, 
$23.4 million (or 14 percent) is for CR projects that will be added to 
the growing DM list if not funded in fiscal year 2017. The remaining 
$41.5 million (or 25 percent) is to upgrade critical safety 
infrastructure that will improve emergency response capabilities. While 
significant, our request does not address all of our needs and 
recommends that $118 million in capital projects be deferred to a 
future year.
    We are requesting funds for several critical safety projects at the 
Capitol Power Plant (CPP). To ensure safe and efficient air 
conditioning and distribution, and reduce the risk of system failure, 
we need to replace the obsolete 5,000-ton constant speed chiller and 
cooling towers along with the chillers at the Alternate Computer 
Facility. These projects will benefit all of the buildings on the 
Capitol campus along with the U.S. Government Publishing Office, the 
Thurgood Marshall Federal Judiciary Building, the Postal Square 
Building, Union Station, the Folger Shakespeare Library and all 
Legislative Branch information technology systems.

<greek-l><GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                 Capitol Power Plant's Aging Chillers.

    In addition, the CPP's historic clay tile roof is experiencing 
structural deficiencies. During storms and high winds, the loose 
elements of the roof are a safety concern, posing a significant risk of 
water damaging the offices and the more than $700 million worth of 
equipment that is housed at the CPP.
    Water infiltration continues to be a major concern. Water has 
marred the sandstone and marble encompassing the facades of most of our 
buildings. As a result, the masonry is cracking and spalling and is 
causing residual damage within the facilities--rusting of steel 
structures, mold, mildew and energy loss--threatening the health and 
safety of our building occupants. We have begun the stone preservation 
efforts on the Senate Extension of the Capitol as well as the Olmsted 
Terrace, Russell Senate Office Building, U.S. Botanic Garden and the 
U.S. Supreme Court. Intensive studies on the remaining buildings are 
nearing completion, which will allow us to identify future needs.

<greek-l><GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


         Damage to Exterior of the Hart Senate Office Building.

    In the near term, we must address the growing safety risks to 
personnel and property due to the deterioration of the parking garages 
on the Capitol campus. The Senate Underground Garage, fountains, 
reflecting pool and associated systems have exceeded their life 
expectancy and are in need of renovation and restoration.
    The domestic water, storm, sanitary and vent piping in the U.S. 
Capitol Building has deteriorated to the point where frequent repairs 
are required due to leaks, corrosion and pipe aging. Continued 
deterioration and leaks may affect operations of building systems and 
facilities leading to a whole or partial shutdown of the building.
    At the U.S. Botanic Garden, continued deterioration of the 
greenhouse superstructure does not support the current and expected 
mission requirements of the USBG's world renowned and rare plant 
collections. Without the addition of a quarantine facility, the USBG 
runs the risk of introducing a pest or disease, which could be 
catastrophic to the broader collection.

<greek-l><GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


           AOC Safety Employees Provided DC Firefighters With
      Familiarization Tours of the Library of Congress Buildings.

    Several projects in the Library of Congress buildings are necessary 
to address urgent life-safety needs, including the second phase of the 
Library of Congress' Thomas Jefferson Building North Exit Stair B, 
which will provide increased capacity to quickly evacuate the building 
in an emergency. If the deficient egress capacity is not corrected, the 
building occupants will not have the number of available exits required 
by code for the building. In addition, we are seeking to replace an 
emergency generator in the Thomas Jefferson Building; modernization of 
elevators in the John Adams and James Madison Memorial Buildings and 
repairs to ensure the John Adams Building garage is fully operational 
and provides ADA compliant access.
    Failure to address these critical projects in the short term will 
exacerbate the aging process, facilitate new deterioration and system 
failures and increase the cost of repairs. Our fiscal year 2017 budget 
request steers us away from this unadvised and dangerous approach and 
builds on our growing list of successes.
                               conclusion
    This fall, we will begin work in support of the 2017 Presidential 
Inauguration. The Inauguration is a time for us to showcase American 
democracy, and we are proud that the restoration of the Dome and 
Rotunda will be complete.
    As a passionate advocate for the Capitol campus, I believe that 
with Congress' support, we can build on our successes and remain a 
strong and healthy symbol for America's growth and prosperity.
    The U.S. Capitol complex houses numerous symbols of an elected 
government created to serve the American people; where representatives 
from all corners of this great Nation gather to preserve the ideals and 
tenets of our Constitution and where we inspire citizens to take up the 
mantle of democracy and freedom.
    While we exercise our faithful stewardship and fiscal 
responsibility, we appreciate the support of Congress to provide us 
with the resources needed to support these lofty goals.

              CAPITOL DOME AND EXTERIOR STONE RESTORATION

    Senator Capito. Thank you very much. Good news on the Dome, 
absolutely. We look forward to seeing it restored to its 
beauty. It is a wonderful symbol of our freedoms. Thank you for 
the work on that.
    I understand the scaffolding around the Capitol will come 
down for the inauguration and go back in another area, is that 
correct, where it is on the Senate side now? It then will be 
completed there, and then where do you move from there?
    Mr. Ayers. Yes. First, on the Dome, this month we have 
started the removal of the scaffolding and we will take off 8 
levels of scaffolding. That should be complete by the end of 
this month. The remainder of the scaffolding on the Dome will 
stay there through about July, and then it will come down. Of 
course, the scaffolding in the Rotunda comes down during the 
State work period in August.
    I think you were mentioning the stone conservation work on 
the Capitol Building, which is on the north extension now, and 
you are absolutely correct, that comes down before the January 
Presidential Inauguration, and right after the inauguration, a 
different portion of that scaffolding will go up and we will 
continue that work over the next several years.
    Senator Capito. What is the status of the Grant statue 
restoration? Will that be down by the inauguration, too?
    Mr. Ayers. Absolutely. We are about 85 to 90 percent 
complete with that work. We had to stop during the cold winter 
months. We are looking forward to warmer temperatures and 
having our contractor back on-site this spring. We are well 
ahead of schedule, and very confident we will have that done 
before the inauguration.

                          WORKING CAPITAL FUND

    Senator Capito. That is good news as well. Thank you. That 
is a well trafficked area during the inaugural activities.
    I have a question about a legislative language request that 
you are making, and that is to establish a working capital 
fund. We talked about it briefly. You do not have it now. The 
reasoning that you have given is with your current accounting 
system, you cannot quite get your construction dollars out 
economically and efficiently.
    I am going to be honest with you, a working capital fund 
sounds to me like a pot of money that may not have the 
oversight or the constraints that you have expressed that are 
within your budget right now. I understand that maybe you are 
feeling hemmed in by it, but at the same time, in this time of 
fiscal constraint and when you read from other agencies across 
the Government of misappropriations or sloppy recording, a 
working capital fund, I do want to open the door to anything of 
that nature.
    So, could you explain specifically why you are asking for 
this, and how much money you would envision would be in this, 
and where that money would come from?
    Mr. Ayers. Sure, I would be happy to. It is an important 
initiative for us, and it is a very cumbersome and complicated 
accounting process for us. We have 200 employees that work in 
our construction division, and those employees receive no 
appropriated dollars. They do work across our 10 appropriations 
and are reimbursed by those appropriations as they do work, 
whether it is here in the Senate or in the Capitol or the 
Botanic Garden or Library of Congress.
    When one of them conducts work say here in the Senate, they 
incur liabilities because they receive benefits. Those 
liabilities may be annual leave or sick leave, or whatever 
other benefits or liabilities they are incurring.
    They may not take those liabilities or we may not need to 
pay those liabilities for 6 months down the road or 3 years 
down the road. So we have to keep that account here in the 
Senate open after that project has been complete, we will keep 
it open for 6 months or up to 3 years or more until that 
liability is expensed out of that account.
    That is just an accounting nightmare. Thousands of 
transactions across hundreds of accounts. A simple way to fix 
that is a working capital fund. It is not a fund that would 
build up any money. The only money that would be in that fund 
are the liabilities that these 200 employees would incur. We 
think that is perhaps less than $5 million.
    Senator Capito. So, you are not actually building up a 
working capital fund the way I am envisioning, in other words, 
millions of dollars into a working capital fund so that if 
somebody comes in and performs some work, you can pay them in 
20 days as opposed to going through the Government bureaucracy 
of maybe a 60 day pay, that is not it?
    Mr. Ayers. No, absolutely not.
    Senator Capito. It is an employee benefit working capital 
fund?
    Mr. Ayers. It is a fund that pays the liabilities and we 
are able to pay those liabilities out of that fund. Nothing 
would change in the way we do business now in terms of how we 
conduct our construction work. To do a project here in the 
Senate requires that your subcommittee approve of that money, 
that will not change, requires the Committee on Rules and 
Administration approve of the project, that will not change.
    The Congress has to approve it. We will perform the work 
and bill this appropriation which will then reimburse the 
account.
    Senator Capito. Do you know of any other agencies that have 
a working capital fund that is structured like this?
    Mr. Ayers. Working capital funds are a fairly common thing 
in the Federal Government.
    Senator Capito. So, this is a common practice, like if I 
were to have asked the Librarian of Congress, he might have a 
working capital fund?
    Mr. Ayers. That could be, yes.
    Senator Capito. Okay. Thank you. Senator Schatz.
    Senator Schatz. Thank you, Chairman Capito, and thank you 
Mr. Ayers, for your excellent work on the Capitol grounds.
    Before I get started, I just wanted to say it is easy for 
elected officials to denigrate the investment in the physical 
plant around the United States Capitol, but we have millions of 
visitors, and it is important that we continue to invest in our 
physical plant. I appreciate the job you do.
    But I want to set the context here. You are asking for $694 
million in fiscal year 2017. We have people here who are not 
able to be here because they are working, 86 employees in 
particular. The lowest hourly wage for people who work for the 
United States Senate and are tipped is $10.50. For non-tipped 
employees, it is $13.30.
    As you know, we have been working very hard to make sure 
they got a little bit of a bump in pay. What happened was when 
we thought we came to a resolution, in my opinion, Restaurant 
Associates improperly, intentionally, and systematically 
misclassified employees.
    What that looks like is if you get a bump in pay, then 
suddenly they decide that you are no longer doing the job that 
you have been doing for 2 or 3 years. They say sign this 
document, certify that you are no longer a cook but rather a 
food service worker. I may be getting the particulars wrong.
    That is what they did. I found it totally outrageous, and I 
am not alone. Members of the Senate on both sides of the aisle 
found this to be outrageous.
    I want to know where we are in that process. I will just 
say this, before you get into where we are in this process, I 
do not think it is Members of the Senate's job to serve 
essentially as labor lawyers for 86 individuals.
    I think it is your job to ensure contract compliance, and 
it is Restaurant Associates' responsibility to not just go by 
the letter of the contract, but to understand they have a 
special obligation to their employees who are not paid enough 
to even live in the city where they work.
    So, what are we doing specifically to remedy the situation 
for these employees, but also what are we doing on a going 
forward basis?
    Mr. Ayers. I certainly agree with your comments completely. 
You know, we modified that contract and made a change in the 
pay rates, and we thought we were doing a good thing, only to 
be surprised just a week or two later to find out that the pay 
rates that we had adjusted to were not being implemented.
    Immediately, six employees came to our attention, and we 
spoke with Restaurant Associates about those six employees. 
They agreed they were misclassified and they reclassified them, 
and provided them back pay.
    That, of course, raised our suspicion and the suspicion of 
many Members of the United States Senate, and we went about 
interviewing employees that worked for that vendor here in the 
Senate as well as the Capitol Visitor Center.
    We did not find any issues with job classification for 
those employees that worked in the Capitol Visitor Center. For 
those employees that were working here in the United States 
Senate, we had questions and concerns with 51 of those 
employees after we finished about 90 interviews with them.
    We have worked with Restaurant Associates and brought to 
their attention what our concerns were with those remaining 51 
employees. They have changed the classification of 35 of them 
to date, and that leaves 16 on the table. Those 16 are broken 
into two groups. The first group are eight that Restaurant 
Associates wants to talk with us about. We began those 
discussions on Friday, and have come to agreement on two or 
three of the eight to date.
    Senator Schatz. Are they treating this like they are in 
litigation with you? I mean, it sounds as if they are resistant 
at every step of the way.
    Mr. Ayers. I think they changed 35 right away without any 
discussion, after we showed the results of our interviews. 
There are 16 that are left on the table that they want to talk 
about, eight of those they want to discuss, and eight we 
completely disagree on. Those eight we disagree on, we think 
the only way to resolve that is to refer it to the experts at 
the Department of Labor, which we have done and Restaurant 
Associates has done.
    There are eight remaining----
    Senator Schatz. Are you confident that they are complying 
with the terms of the contract?
    Mr. Ayers. I do not think they have been. These misclas-
sifications, it seems to me, are not in compliance with the 
contract, and not in compliance with the modification we issued 
on December 18.
    Senator Schatz. Are you exploring all of your options with 
respect to the contract?
    Mr. Ayers. Absolutely. You know, I think we need to get the 
results. We are at the end of our review. The Department of 
Labor is also reviewing this. We need to see those results. We 
need to have all the facts in front of us. Then we need to do 
what is right from a contractual perspective.
    Senator Schatz. Thank you.

                         DATA CENTER RELOCATION

    Senator Capito. Thank you. I would encourage the direction 
that you are going and associate my feelings with the ranking 
member. I mean, we have many of these folks in the audience 
with us today, and we have submitted their written statements 
at Senator Schatz's request. Hopefully, we can have a very 
favorable resolution to this issue.
    I would like to ask about the data center relocation. You 
might have heard me ask the Library of Congress Acting 
Librarian. You also have in your budget $3.9 million for 
relocation to a new facility of the AOC data center. Again, it 
sounds like House Information Resource is pushing this move.
    Would you have reached this decision without specific 
direction from the House, and do you believe it is necessary 
for you to relocate your data center, and what criteria are you 
using for this?
    Mr. Ayers. Thank you. In 2013, we actually did relocate our 
data center from a space in the Ford House Office Building to 
be co-located with HIR, the House Information Resource.
    Senator Capito. Right, and they are leaving their space.
    Mr. Ayers. Yes. That essentially, from my perspective, tied 
us to the hip of HIR, so if HIR is moving, we felt it 
appropriate that we needed to move with them. I think that 
provides ultimately some benefit of being co-located in one 
data center.
    I think there are options on the table for us. It is not 
imperative that we move, but we certainly think it would 
improve our service, it would improve our ability to ensure 
that data is readily available to us during emergency 
situations.

                        LEGISLATIVE CALL SYSTEM

    Senator Capito. Yes, I agree with that, and I do see when 
you are sort of tied with another agency how it is difficult to 
unwind and something could be much more expensive for you as 
well.
    My last comment will be one of your multi-year requests is 
$1.4 million for a new legislative call system. That is going 
to be a sad day when those bells and lights go away, but none 
of us really know what they mean now anyway.
    I do not know if you have already envisioned what kind of 
replacement you are going to make with that, I understand some 
of the parts are antiquated and cannot be replaced, it is a 
system obviously that is from the old school time.
    What is your vision there, and will there be follow on 
requests for dollars to help you move through with that 
project?
    Mr. Ayers. We do not think there will be follow on requests 
to complete the study. We think that the money that we have 
available will enable us to study what alternatives are out 
there, and to work closely with the Clerk of the House and the 
Secretary of the Senate to find some new technology that will 
enable us to perform the same function.
    The clock system we have today, that manufacturer has 
stopped making the parts for that. We have about 4,000 of them 
across the Capitol Campus. We have bought several spares that 
we can keep the current system going for a year or two while we 
carefully and methodically study what alternatives are out 
there.
    We do not have any preconceived notions about what that 
might be. It could be a simple replacement of what is there or 
we may suggest moving completely to television and iPhones and 
PDAs.
    Senator Capito. Yes, that is what I was going to suggest, 
some sort of Smartphone app. We are relying on that anyway to 
alert us. I would not recommend shock collars. I do not think 
we would be in favor of that one.
    Anyway, thank you very much for what you are doing. I 
cannot wait until the trees bloom and all the Dome is clear 
from construction. It makes Washington a beautiful city, and it 
makes this campus beautiful, and you work hard to do that. So, 
thank you.
    Mr. Ayers. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Capito. All right. Thank you, Mr. Ayers, to you and 
all the staff of the Architect of the Capitol for your time 
today. The hearing record will remain open for 7 days, allowing 
members to submit statements and/or questions for the record, 
which will be sent to the committee by close of business on 
Tuesday, March 22.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                  Questions Submitted to David S. Mao
          Questions Submitted by Senator Shelley Moore Capito
                    information technology security
    Question. The Library's request includes $6.6 million and 5 
additional full-time-equivalents for Information Technology Security 
Enhancements. What security enhancements will this funding provide and 
why are 5 additional FTE's necessary?
    Answer. The two main enhancements are: the design and deployment of 
two-factor authentication for all Library users, and the coordination 
of all IT Security functions within the Library.
    The 5 additional FTEs are necessary to assure oversight across the 
Library's five mission units in the Library's effort to manage IT 
Security functions. These FTEs would act as subject matter experts for 
the program by providing guidance and serving as expertise on crucial 
systems, such as Congress.gov.
    Question. Does this request respond to the recommendations that GAO 
made in its March 2015 report on the Library's need to address serious 
information technology management weaknesses? Will this close out all 
recommendations by GAO? If not, what is the Library's plan for 
addressing the remaining recommendations?
    Answer. The Library's fiscal 2017 request addresses several 
recommendations in the GAO non-public report.
    Funding this request will not close all recommendations but will be 
a good step forward to ensure that the pertinent non-public findings 
are closed and that they do not occur again. There are many other areas 
addressed in the GAO audit that are not IT security centric. The 
Library is currently working on all audit recommendations at this time 
and meets with the GAO audit team weekly.
    Question. Recognizing that there are many different offices 
throughout the Library, including the Congressional Research Service 
(CRS) and the United States Copyright Office, each with its own unique 
IT needs, what are you doing to ensure that the individual needs of 
each of the divisions within the Library are being met?
    Answer. With respect to IT Security, this request will assure that 
all business units within the Library have both secure access to 
Library resources and trained IT Security staff managing the IT 
Security activities for their systems. In addition, business units will 
no longer need to contract out security functions for experts to serve 
as Information System Security Officers (ISSOs). The OCIO will perform 
this function for all business units within the Library.
    Question. If the Library's Salaries and Expenses account were held 
to the fiscal year 2016 enacted level of $419.6 million, would the 
Library prioritize these IT enhancements from within that level of 
funding, at the expense of other needs? If the Library simply could not 
absorb this cost, what would be the impact to the Library's programs 
and services?
    Answer. If funding was not approved for both security enhancements, 
the Library would not be able to absorb the costs related to 
implementing the initiatives. Therefore, the Library would remain in 
the same security posture. Two factor authentication would not be 
provided to all Library users and IT security functions would not be 
centralized. Both of these enhancements are recommendations stipulated 
in recent GAO and Library of Congress Office of Inspector General audit 
reports.
    making congressional research service reports publicly available
    Question. I understand that some CRS reports are currently on the 
``Congress only'' version of Congress.gov, so how difficult, time-
consuming, or costly could it be to put the reports on the public 
version of Congress.gov?
    Answer. CRS reports are currently only published on CRS.gov, a Web 
site restricted exclusively for congressional use. The site is linked 
to a number of other congressional sites within CapNet, such as the 
Congress-only side of Congress.gov, Webster and HouseNet, but the 
content is only available in CRS format and to members and staff who 
can access CRS.gov.
    To ensure network security, CRS reports would have to be added 
separately to the public facing section of Congress.gov. Doing that 
would require a level of effort--and cost--similar to adding reports to 
GPO's FDSys.gov. There are some technical complexities and cost 
considerations that would have to be addressed to facilitate publishing 
on a different site, such as modifying report formats and coordinating 
metadata requirements. There also may be potential impacts and 
unintended consequences on CRS that have a financial impact.
    Question. The greatest concern that I have about making the CRS 
reports publicly available, from an appropriations perspective, is the 
potential for increased costs in terms of CRS personnel and hours spent 
on these reports. Would additional personnel really be necessary in 
order to make CRS reports ``ready'' for public consumption?
    Answer. Yes. If Congress decides to make CRS reports available to 
the public, some number of technical staff would be required for a 
limited time to reconfigure how CRS products are produced and to ensure 
the metadata necessary for the products to be incorporated into another 
site are present. There may also be a long-term need for additional 
staff at CRS to respond to public inquiries about its products.
    Question. If the decision is made to put certain CRS reports on the 
public side of Congress.gov, what has to be done differently within CRS 
and why?
    Answer. For years, CRS has made organizational and technological 
decisions based on its mission to work exclusively for Congress and the 
long-standing prohibition on publishing CRS work for the public. From 
the structure of the CRS workforce to the design of CRS.gov and the 
format of reports for use within the closed CapNet environment, CRS 
products and procedures were created to support Congress, not to 
facilitate publishing information for the general public. A number of 
changes would be required in how CRS operates to provide content for 
the public while protecting the core values that make CRS particularly 
valuable for Congress. For example, the pdf and html versions of every 
CRS report contain its author's contact information to enable members 
and staff to easily contact the expert on that issue directly. That 
would not be sustainable in a more public setting.
    To ensure data security, CRS reports would have to be added 
separately to the public facing section of Congress.gov. From a purely 
technical point of view, doing that would require a level of effort--
and cost--similar to adding reports to GPO's FDSys.gov.
    Internally, to ready CRS reports for public release would require 
modification of the CRS publishing process; including redacting author 
contact information for publicly available reports, ensuring reports 
meet the formatting requirements of Congress.gov and creating the 
metadata required by the site for indexing and searching. If CRS is 
required to publicly release other general distribution products, such 
as blog posts, videos, infographics, or the Appropriations Status 
Table, additional technical hurdles would have to be overcome, 
including the need to completely reformat much of that material.
    One provision of the recently introduced legislation calls for the 
ability to track the version history of CRS products. Depending on how 
that would be implemented, CRS could have to redesign its authoring and 
publishing tool to allow for that capability.
    CRS would also have to adopt new policies and procedures and 
dedicate additional resources to ensure that Congress remains the 
primary focus for CRS work, and to mitigate the impact that an 
increased public profile would place on the Service and its experts.
    Question. How many additional people would be necessary and why?
    Answer. The total number of additional staff and their duration 
would ultimately be determined by which CRS products are made public, 
and how they are made available. To make just CRS reports public, the 
Service anticipates requiring at least four temporary IT specialists 
for a minimum of 120 days to establish the new publishing process and 
prep the repository of over 8,000 CRS reports for release. The Service 
would also likely need to permanently expand its communications staff. 
If CRS is required to make additional products public, additional 
resources would be required.
    Question. What are some of the benefits to making CRS reports 
publicly available? Have you considered developing a mobile app like 
GAO?
    Answer. Since CRS products have not been made widely available to 
the public by Congress previously, the benefits are uncertain at this 
time. Proponents state that the public release of CRS products will 
lead to a more informed electorate. They also believe that because 
taxpayers pay for the products, they should have immediate and direct 
access to them. It has been asserted that public release of CRS 
products would lead to easier access for members and congressional 
staff; although that benefit may be offset by the potential reduction 
in congressional use of CRS.gov, which hosts other features intended 
exclusively for Congress, including registration for CRS events, place 
a request functionality, a directory of CRS experts, and other CRS 
products.
    CRS has explored options for the creation of a mobile app, however, 
constrained resources would limit the creation of an app in the near 
future.
    Question. The bill introduced by Senators Leahy and McCain includes 
a specific section that states there will be no effect on the Speech or 
Debate Clause and that all confidential communications between a 
member, committee or office of Congress and CRS will be kept 
confidential. I have consulted informally with the Senate Legal Counsel 
and have an understanding that Sec. 6 Rules of Construction, (a) No 
Effect on Speech or Debate Clause, included in this legislation appears 
to ``negate any concern about the effect of publication of CRS reports 
online on Speech or Debate Clause immunity afforded to members or 
staff, including CRS employees.'' There is clearly congressional intent 
to maintain this protection and that intent should be considered if any 
judicial challenges are issued. Do you believe that if this language 
were included in any final legislation regarding the publication of CRS 
reports that it would eliminate the Speech or Debate Clause concern for 
CRS?
    Answer. CRS's confidential relationship with Congress is crucial 
for its ability to best serve the institution. If members lose trust 
that their interactions with CRS will be held in confidence, they may 
not utilize the Service to inform their legislative decisionmaking.
    With that in mind, no, the proposed language would not eliminate 
the Speech or Debate Clause concern for CRS or for Congress. The 
language would certainly make it clear that Congress is seeking to 
continue the protections CRS has traditionally been granted, and, as 
noted, that intent should be considered if there are any judicial 
challenges. However, there is no established consensus among legal 
experts on whether a court would uphold the privilege if CRS is seen as 
a direct provider of its publications to the general public.
    The loss of CRS's Speech or Debate immunity could have a number of 
consequences for both the Service and Congress, including:

  --CRS analysts potentially being required to publicly testify 
        regarding their work for Congress, including their 
        conversations with members and staff;
  --CRS research, including background notes and observations, may be 
        included in court discovery processes; and
  --The General Counsel for the House of Representatives and the Senate 
        Legal Counsel may be required to expend significant additional 
        time and resources in trying to defend CRS against judicial and 
        administrative proceedings.
          congressional research service full-time equivalents
    Question. Following my meeting with Mary Mazanec last month, I had 
several additional questions about CRS employees and salaries and I 
wanted to thank CRS and the Library for coordinating such a quick 
response to my questions. As a follow-up to those responses, I note 
that CRS is a top-heavy organization with 493 staff, out of the current 
594 total this year, at a grade level of GS-12 and above, including 
Senior Level Managers and Specialists. The fiscal year 2017 request 
includes funding for an additional 22 FTE's, each at a grade level of 
GS-12 or above. Why is it necessary for CRS to be so top-heavy and to 
want to continue to grow the organization at the top?
    Answer. Very early in the history of CRS, Congress made the 
decision to support the development of high level expertise in the 
Service. The CRS workforce is designed to provide Congress with in-
depth research and analysis expertise equivalent to what is readily 
available to senior leaders in the executive branch and elsewhere.
    CRS analysts and attorneys must be able to exercise independent 
judgment, perform work of exceptional difficulty and responsibility in 
complex and highly technical legislative areas. They are expected to 
interact with, and command the respect of, high level Government 
officials, as well as industry and academic leaders. These skills 
necessitate that CRS maintain at its core experts at higher grade 
levels in order to provide Congress with independent expertise on par 
with the knowledge of high-ranking Government officials, think tanks, 
international experts, lobbyists, and others involved in the production 
and analysis of legislation.
    With constrained budgets--and evolving demands from Congress--CRS 
has restructured its recruitment strategy over the last few years to 
bring in more entry-level analysts. The Service has also created new 
position types--such as research assistants--to bring in highly 
talented staff at lower levels to assist analysts and address the high 
volume of work generated for CRS by members' constituents' inquiries to 
their district and DC offices.
    However, currently CRS's bench is only one deep in many subject 
areas. To meet the full range of congressional needs in those areas, 
CRS must maintain senior analytical staff capable of addressing any 
question that may arise; from basic informational inquiries to those 
requiring nuanced in-depth analysis. Complex policy analysis and 
legislative work once performed by senior committee staff, whose 
positions have been reduced or eliminated altogether under 
congressional budget constraints, has fallen largely on CRS to 
accomplish now. This work, as you know, requires high levels of 
professional accomplishment and expertise.
    In CRS, Congress has at its disposal dedicated, specialized experts 
that member and committee offices would have difficulty maintaining on 
their own. Not only is maintaining that high-level expertise within CRS 
as shared staff for the entire Congress more cost efficient, it also 
provides a synergy to the research and analysis that is available to 
all members and congressional staff. To fulfill its mission, as it 
currently stands, CRS needs to be able to continue to build and enhance 
its research capacity with staff capable of meeting fully the needs of 
Congress as it contends with increasingly complex issues.
                       copyright it modernization
    Question. The total estimated for the IT Plan is $165 million over 
5 years. At the conclusion of the implementation period, the Plan 
anticipates that operating costs would require an increase in the 
Copyright Office base budget of approximately $25 million in fiscal 
year 2023 and beyond. How confident are you in the estimate of $165 
million for the total IT Plan, given that you are seeking ``full budget 
control'' and ``contracting authority,'' which may require additional 
staff, as well as unidentified ``unwind costs.'' If you add those costs 
in, then what would be the cost per fiscal year for each of the 5-years 
of implementation and the out-year base increase to the Copyright 
Office?
    Answer. At Congress' direction, the Copyright Office was pleased to 
develop and provide to Congress its Provisional Information Technology 
Modernization Plan and Cost Analysis (``Provisional IT Plan'' or ``The 
Plan'') in February 2016, which envisions a ``21st century copyright 
organization,'' that includes a ``robust modern [IT] operation.'' The 
Provisional IT Plan recommends a ``clean slate'' approach to Copyright 
Office IT--an approach that is not uncommon when retiring legacy 
systems and minimizing the impact of sunk costs and siloed projects. 
The Plan assumes ongoing innovation and evolution by prioritizing the 
flexible cloud technologies that are common in the copyright 
marketplace, while minimizing the need for a capital-intensive fixed 
data center. It was developed after a prior multi-year public process 
into modernization needs, and with the support of a leading consulting 
firm, Deloitte Consulting LLP, which was subsequently validated by 
Gartner, Inc.
    The Provisional IT Plan considered a wide array of variables in 
developing cost estimates, and included a number of contingencies of up 
to 35 percent for certain expenses to account for potentially shifting 
costs. The Copyright Office has also considered the costs necessary for 
full budget control and contracting authority, both of which are 
essential if Copyright Office appropriations, including customer fees, 
are to be utilized nimbly and to the maximum potential for the Nation's 
copyright system. The costs for these considerations are anticipated to 
be modest, and likely could be absorbed from the current Copyright 
Office base budget. This, however, assumes that the Copyright Office 
would share certain services with the Library, including financial 
management programs.
    Question. The IT Plan assumes approval in fiscal year 2017, with 
the first year of implementation funding being requested in fiscal year 
2018. Are there costs included in the fiscal year 2017 budget request 
associated with ``year zero'' for getting this Plan off the ground and 
ready for a first year budget request in fiscal year 2018? What are the 
cost increases if the Plan is not approved in this budget cycle? What 
happens if the Committee can only fund a portion of the plan due to 
budget constraints?
    Answer. The Provisional IT Plan currently is set to a 5-year 
timetable beginning primarily in fiscal year 2018. This timeframe was 
selected because it necessarily follows the Copyright Office's broader 
strategic plan finalized in December 2015. Moreover, the fiscal year 
2017 budget was already in process when Congress directed the Copyright 
Office to analyze what was needed for a modern copyright IT enterprise, 
including engaging its customers on both the timeline and funding 
strategies. That said, if Congress agrees with the Plan (it reflects a 
multiyear process and early indications show that customers appear to 
support it), the Copyright Office could recalibrate its fiscal year 
2017 request to maximize activities that should be done in advance of 
2018 activities. In this scenario, the Copyright Office would still 
apply funding to certain functions under the current state, including 
legacy systems, but could redirect as much funding as would be 
practical for the future state. It is also the case that, with 
additional fiscal year 2017 funding, the Copyright Office could begin 
implementing 2018 activities a year early. Although we recognize that 
the Committee's resources may be limited, we have not yet completed a 
funding strategy, and would like to discuss funding in detail after we 
have received public comments (including with regard to fees) and 
completed our analysis.
    Question. What is your Plan B if you don't receive approval for 
this Plan?
    Answer. The Copyright Office firmly believes that upgrades to its 
IT system are crucial to allow the Office to ably support the global 
trillion-dollar copyright economy and the public at large that it 
serves. The Office's core IT business system is already more than 8 
years old and has not had its technical architecture upgraded since it 
was launched. The Copyright Office developed the Provisional IT Plan in 
response to a congressional directive to assess how best to achieve a 
robust and modern IT operation that would enable a 21st century 
copyright organization. The subsequent plan built upon the previous 4 
years of study, public engagement, and analysis of technological needs, 
with the assistance of outside contractors to help assess the most 
cost-effective and efficient IT solutions. Certainly, if there are 
aspects of the Provisional IT Plan that Congress does not believe are 
feasible or desirable, the Copyright Office will work with Congress to 
reprioritize its needs and further investigate how best to serve the 
copyright system. If no upgrades are approved, however, the U.S. 
copyright system will continue to lag dangerously behind its global 
partners, with real world negative impacts for the copyright industries 
and the general public.
    Question. This plan appears to assume that the Copyright Office is 
a separate and distinct entity from the Library versus examining where 
there may be cost efficiencies of shared servicing with the Library. 
Given that the Library is also undertaking major IT modernization 
efforts, did you cost out options of shared servicing with the Library?
    Answer. The Provisional IT Plan is designed to be flexible and 
states explicitly that it may be ``implemented according to a variety 
of governance protocols, approvals, and controls between the Copyright 
Office and larger Library of Congress.'' The Provisional IT Plan does, 
however, describe a modern IT system that enables management of 
Copyright Office IT directly by the Copyright Office, which is most 
familiar with the needs of Copyright Office staff, Copyright Office 
customers, and public demand for Copyright Office services. This 
approach optimizes the Copyright Office's IT resources and investments, 
which cannot be accomplished unless the Copyright Office is able to 
analyze all potential solutions, including those outside of the 
Library. That said, there is and should be appropriate coordination 
and/or collaboration with the Library on these issues. This includes 
looking into shared services with the Library and other Government 
agencies, some of which could be free or subsidized. In fact, whether 
and when the Library plans to charge the Copyright Office for services 
will be a key consideration vis-a-vis other vendors.
    Question. Typically, Congress has not found that low-end-of-
estimates pan out, therefore the higher estimate of $190 million may be 
more realistic; however, I'm concerned that it still might be low given 
the magnitude of the project. In the current flat budget environment, 
how do you propose that we take on such a costly modernization project? 
Are Copyright customers prepared to fund all of those costs? What would 
be the fee increases necessary to fund these costs and what happens if 
you don't have the copyright volume to support the funding need?
    Answer. The Copyright Office cannot administer the Nation's 
copyright laws effectively if it does not have the resources to do so. 
However, it should be understood that the Copyright Office is not 
asking for $190 million in taxpayer support. Rather, the Provisional IT 
Plan presents a cohesive framework that would ensure ongoing evolution 
and likely would increase participation, including from paying 
customers. The Provisional IT Plan speaks to a nimble Government 
platform for all kinds of transactions and data exchanges that are in 
the Nation's interest.
    At the request of the Congress, the Copyright Office has issued a 
set of public inquiries soliciting comments on future funding 
strategies, including for capital costs, and looks forward to sharing 
the results of this as well as its recommendations next month. The 
Office agrees that copyright owners have a role to play in funding the 
services they receive. It would, however, be a departure from practice 
as well as from the current language of the Copyright Act to require 
copyright owners to fund the entirety of the Office's costs in 
administering the varied provisions of the Copyright Act, many of which 
benefit customers on the back end, i.e., those that utilize the 
granular data in copyright records to build businesses or otherwise 
contribute to the commercial economy or cultural heritage of the United 
States. Moreover, copyright registration is voluntary; while there are 
incentives built into the law, a key goal is to find the right balance 
between attracting maximum participation in, and contributions to, the 
public record and providing a sustainable funding model. Again, this is 
not to say that some copyright owners could not or would not pay more 
for better services.
    The Copyright Office looks forward to working with Congress to 
potentially update its fee authority, create a revolving fund, ensure 
multi-year spending, build a robust reserve account, build in further 
safeguards for small authors, and find other strategies that will help 
us to continuously innovate and evolve. Some of these initiatives would 
require revising the Copyright Office's statutory fee authority; it 
also is possible that certain modernization activities, including 
automating recordation functions, would eventually require technical 
adjustments to the law.
    Question. The Government is not always the best at managing service 
level agreements of contracted services. It is highly likely that in 
the future an agency would have to move from one cloud provider to 
another in order to improve service, or find a new provider if one goes 
out of business. Has Copyright identified what such a move would cost? 
Is this a cost that would have to be built into the fees for cost 
recovery?
    Answer. The Provisional IT Plan leverages cloud-based services 
because they are scalable and flexible, and, if the Copyright Office is 
able to control and manage its IT systems, more able to provide 
constant information on how the technology is working. The Plan assumes 
a mix of public and private cloud services because this strategy both 
minimizes risk and best reflects the diverse responsibilities of the 
Copyright Office under the Copyright Act. This approach is not only 
generally less expensive than maintaining a physical data center, but 
also allows the Copyright Office to move quickly to accommodate new 
trends and technologies. The Plan's suggested architecture provides for 
relatively easy migration from one platform to another as required. In 
doing so, it accounts for the fact that different parts of the 
Copyright Office carry out different duties and allows for relatively 
easy migration.
                                 ______
                                 
             Questions Submitted by Senator Chuck Grassley
                          library of congress
    Question. Mr. Mao, creators seeking to register their works cannot 
do so without a functioning Copyright Office system. Last summer the 
Library experienced a costly 9-day outage of the copyright registration 
system when the Library's Primary Computing Facility (PCF) was shut 
down during the Architect of the Capitol's annual fire and safety 
check, and the copyright community was particularly affected.
    In your testimony, you state that the fiscal year 2017 budget 
request is intended to address the most urgent shortfalls in key 
infrastructure areas--one area being technology.
    A major focus of this budget is to modernize computing capability, 
with the Library having plans for a 3 year investment in building its 
primary computing facility away from Capitol Hill. Recognizing that a 
recent study found that copyright industries--those which are primarily 
engaged in creating, producing, distributing, and exhibiting 
copyrighted works--contribute over than $1.1 trillion to the country's 
GDP, it is critical that IT improvements for the Copyright Office are a 
priority.
    Will the Library prioritize the improvement of the Copyright 
Office's IT infrastructure and explain where improvement of the 
Office's IT system fits within the Library's overall plan to modernize 
its computing capability?
    Answer. With Library's fiscal 2015 realignment and development of a 
reinvigorated strategic plan, the Library is now focused on transition 
and modernization. Modernization of the Copyright Office is at the 
forefront of that focus. Modernizing the Library and Copyright Office 
begins with an information technology infrastructure buildout. The 
Primary Computing Facility (PCF) request in the fiscal 2017 budget is 
at the heart of that buildout. The PCF not only mitigates national 
security concerns by adhering to the concept of moving Capitol Hill 
Data Centers outside of 300 miles, but it provides more than enough 
capacity and capability for all of the Library's information technology 
operations. The PCF provides the Library with a state of the art Tier 
III facility with the resilience required to mitigate shutdowns and 
provide significant room for growth. Once moved, the next step would be 
to focus on funding for the new Copyright applications that are 
described in Copyright's Provisional Information Technology 
Modernization Plan which was recently distributed.
    Question. In order to serve copyright owners and the copyright 
community, a modern Copyright Office IT system must be lean, nimble, 
results-driven, and future-focused. Currently, the Copyright Office is 
unable to offer the ability to register works through mobile devices or 
apps, or to connect via an API to search public data in real time. 
Their recordation system is paper-based while their registration system 
is tied to a proprietary product, a federally owned data center, and 
dated underlying architecture.
    In an effort to remedy this situation, the Copyright Office has 
engaged in a years-long process, beginning in 2011, which has sought 
public input and assistance from multiple consulting services. The 
result is the Copyright Office's Provisional Information Technology 
Modernization Plan, submitted to the House of Representatives and dated 
February 29, 2016, which calls for a comprehensive modernization plan 
to meet the needs of the Office's customers.
    The Library seeks funds in its fiscal year 2017 budget to modernize 
it computing capability. Please share the analysis that went into 
Library's decisionmaking process to update its IT infrastructure. What 
kind of comments and input did you invite from Library and Copyright 
Office constituents and stakeholders, and other experts during this 
process? How does the Library reconcile its own approach to deploying 
an improved technological infrastructure to undergird a modernized 
copyright system, with the years-long, substantive approach taken by 
the Copyright Office--which has received significant input from the 
copyright community?
    Answer. A significant body of analysis has been developed during 
the last several years of Library of Congress Inspector General audits, 
the Government Accountability Office public and non-public reports as 
well as numerous assessments from Deloitte, Forrester, and other 
industry experts, all of which contributed to the future vision of the 
Library's infrastructure requirement. The Copyright Office Provisional 
Information Technology Modernization Plan represents a comprehensive 
body of work that provides a clear vision and direction for modern 
Copyright Office applications that the Library fully supports and will 
be seeking to integrate funding requests for in future budgets. With 
the creation of the Library's Office of the Chief Information Office 
and an IT Strategic Plan and Investment Process the Library has laid 
the groundwork for methodically implementing IT modernization for all 
operations of the Library. Once the IT infrastructure is in place, the 
applications for process modernization, if funded, can be developed and 
installed. The Library believes the most efficient way to provide the 
IT infrastructure capacity is through implementation of the proposed 
PCF relocation. This will provide a resilient Tier III capability with 
ample room for growth and security.

                         CONCLUSION OF HEARINGS

    Senator Capito. This concludes the Legislative Branch 
Appropriations Subcommittee's hearings regarding the budget 
requests for 2017.
    I want to thank the ranking member for his service, but 
also for his attention to all the details that are going on. He 
does a great job. So, thank you.
    Senator Schatz. Thank you.
    [Whereupon, at 3:52 p.m., Tuesday, March 15, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the chair.]
</pre></body></html>
